No. 19IN THE

HENRY POSADA,
v.

Petitioner,

UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
PETITION FOR A WRIT OF CERTIORARI
__________________________
ANDREW R. DEVOOGHT

Counsel of Record

LOEB & LOEB LLP
321 N. Clark Street
Suite 2300
Chicago, IL 60654
(312) 464-3100
adevooght@loeb.com

Counsel for Petitioner

i
QUESTION PRESENTED
Whether the court of appeals erred in
determining that the district court did not clearly err in
accepting the government’s assertion that Mr. Posada
only saw 20 patients a day, three days a week, such that
the loss amount attributable to Mr. Posada was
$4,087,736?

ii
PARTIES TO THE PROCEEDINGS
All parties appear in the caption of the case on
the cover page.
LIST OF PROCEEDINGS
•

•

United States v. Henry Posada, No. 17 CR 165, U.S.
District Court for the Northern District of Illinois.
Judgment entered February 23, 2018 and amended
March 13, 2018.
United States v. Henry Posada, No. 18-1586, U.S.
Court of Appeals for the Seventh Circuit. Judgment
Entered July 18, 2019.

iii
TABLE OF CONTENTS
QUESTION PRESENTED ............................................. i
PARTIES TO THE PROCEEDINGS ............................ ii
LIST OF PROCEEDINGS ............................................. ii
TABLE OF CONTENTS............................................... iii
TABLE OF AUTHORITIES .......................................... v
OPINIONS BELOW ...................................................... 1
JURISDICTION ............................................................ 1
STATUTES AND CONSTITUTIONAL PROVISIONS
INVOLVED ............................................................ 1
STATEMENT................................................................. 1
REASONS FOR GRANTING THE PETITION ............ 9
I.

The Court of Appeals Failed to Acknowledge the
District Court’s Clear Error in Disregarding
Critical Government Surveillance Evidence
Readily Demonstrating Mr. Posada Saw More
than 20 Patients a Day ........................................ 11

II.

The Court of Appeals Failed to Acknowledge the
District Court’s Clear Error in Concluding that
the Number of Patients Mr. Tiu and Mr. Latane
Saw Supported the Government’s Flawed
Assumption that Mr. Posada Only Saw
Approximately 20 Patients a Day, Three Days a
Week. .................................................................... 15

III. The Court of Appeals Failed to Acknowledge the
District Court’s Clear Error in Disregarding
Substantial Evidence of Services Dr. Posada
Provided Because of an Absence of Records ....... 19

iv
CONCLUSION ............................................................ 22
APPENDIX A – Court of Appeals Opinion
(July 18, 2019) ................................... 1a
APPENDIX B – Judgment in a Civil Case
(February 13, 2018)........................... 7a
APPENDIX C – Amended Judgment in a Civil Case
(March 13, 2018) ............................. 29a
APPENDIX D – Transcript of Sentencing Hearing
pages 1, 14-19, 56-60
(February 13, 2018)......................... 41a
APPENDIX E – Transcript of trial, day 4, a.m. session
pages 1, 6-7, 9-10, 12-14, 18, 24-25
(October 26, 2017) ........................... 52a
APPENDIX F – Transcript of trial, day 3, p.m. session
pages 1, 110-111, 113
(October 25 2017) ............................ 63a
APPENDIX G – Transcript of trial, day 2, a.m. session
pages 1, 20, 39-41, 48, 74-76,
84, 102-103, 121
(October 24, 2017) ........................... 68a
APPENDIX H – Docket Entry
(Docket 64)
Filed October 27, 2017 .................... 81a
APPENDIX I – Government’s Sentencing
Memorandum (Docket 69)
Filed January 9, 2018 ........................ 83a

v
APPENDIX J – Defendant’s Objections to the
Presentence Investigation Report and
Sentencing Memorandum
(Docket 72)
Filed January 23, 2018 ...................... 96a
APPENDIX K – Government Exhibit 46 ................ 109a
Report of Investigation
November 4, 2015 ............................ 111a
Report of Investigation
November 13, 2015 .......................... 113a

vi
TABLE OF AUTHORITIES
Page(s)
Cases

Anderson v. Bessemer City,

470 U.S. 564 (1985) ...................................... 9, 10, 18

Braxton v. United States,

500 U.S. 344 (1991) .................................................. 9

Flowers v. Mississippi,

139 S.Ct 2228 (2019) .................................... 9, 10, 18

Glossip v. Gross,

135 S.Ct. 2726 (2015) ............................................. 10

United States v. Severson,

569 F.3d 683 (7th Cir. 2009) .................................. 10

PETITION FOR A WRIT OF CERTIORARI
Petitioner Henry Posada respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Seventh Circuit
in this case.
OPINIONS BELOW
The Seventh Circuit’s opinion is reported at
United States v. Posada, 930 F.3d 881 (7th Circuit
2019) and reproduced at App. 1a-6a. The judgment of
the District Court for the Northern District of Illinois is
reproduced at App. 7a-28a and amended at App. 29a40a.
JURISDICTION
The Seventh Circuit’s opinion in this case was
issued on July 18, 2019. App. 1a-6a. No rehearing was
sought, rendering the petition for writ of certiorari due
on or before October 16, 2019. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
This case does not involve the interpretation of
statutory or constitutional provisions.
STATEMENT
After a five day trial, a jury convicted petitioner
Henry Posada (“Mr. Posada”) of eighteen counts of
health care fraud in violation of Title 18, United States
Code, Section 1347. App. 7a-28a and amended at App.

2
29a-40a. Heading into trial, the government accused
Mr. Posada of having never submitted a single
legitimate claim to any health care benefit program
from 2008 through 2016, and committing “at least”
$5,182,988 worth of health care fraud. After substantial
trial evidence—both from Mr. Posada’s witnesses, as
well as the government’s own witnesses—described the
extensive chiropractic services Mr. Posada provided to
his patients, the government reduced its alleged loss
amount by almost $1.1 million, to $4,087,736. App. 85a86a.
The government explained that it reached this
revised loss figure by crediting Mr. Posada for seeing at
least 20 patients a day, three days a week, and for
performing spinal manipulations on those patients
pursuant to Current Procedural Terminology (CPT)
billing code 98941. App. 85a-86a. The government
further noted that it credited Mr. Posada as having seen
more than 20 patients on a number of days. App. 85a87a. Pursuant to its revised loss figure of $4,087,736,
the government contended that Mr. Posada’s offense
level should be increased by 18 levels pursuant to
Guideline § 2B1.1(b)(1)(J), for a total offense level of 26.
App. 85a. The United States Probation Office agreed
with the government’s loss calculation.
Mr. Posada readily acknowledged that, for a
number of reasons, he submitted claims to health care
benefit programs between 2008 and 2016 that were not
correct. Mr. Posada further contended, however, that
the evidence presented at trial demonstrated that Mr.
Posada saw substantially more than 20 patients on a

3
given work day, such that the loss amount was far less
than $3.5 million, much less $4,087,736. App. 97a.
Mr. Posada highlighted aspects of such trial
evidence for the district court. For example, Mr. Posada
noted that it was the government’s own surveillance in
October and November 2015, shortly before the
government executed a search warrant on Mr. Posada’s
office, that demonstrated that Mr. Posada saw far more
than 20 patients in a given day. App. 97a-98a. For
instance, on November 4, 2015, in a period of less than
2 hours and 15 minutes in the morning, government
agents observed 26 “patients” go into Mr. Posada’s
office. App. 97a, 111-12a. Additionally, on November 13,
2015, government agents observed 25 patients and a
physical therapist enter and leave Mr. Posada’s office
from 8:25 a.m. to 12:33 p.m. App. 97a, 113-18a.
Mr. Posada similarly called the district court’s
attention to the testimony of Richard Latane, a
government witness who worked in Mr. Posada’s office
as a physical therapist on a periodic basis for several
years during the relevant time period. Mr. Latane
testified that when he was at Mr. Posada’s office,
typically from 3 p.m. to 7 p.m. or 8 p.m., Mr. Posada was
always at the office the entire time Mr. Latane was
there. App. 74a. Mr. Latane further confirmed that
during these four or five hours, he was “able to observe
that on average . . . you would see that there were three
to four patients in the patient rooms that [Mr. Posada]
was going in and out of,” with one or two people waiting
in the office’s lobby area. App. 75a.

4
Mr. Posada also noted the trial testimony of five
of his patients. This sample of patients not only
demonstrated that Mr. Posada performed hundreds, if
not thousands of beneficial services for them during the
relevant time period, they further confirmed that Mr.
Posada’s office was always busy with patients when
they went to his office to receive treatment. App. 54a56a, 58a-59a, 61a, 64a-65a. Mr. Posada further noted
that such testimony was particularly critical given the
government’s heavy reliance on the lack of
documentation in Mr. Posada’s files in calculating its
proposed loss amount. For example, the patient files for
the five individuals who testified on Mr. Posada’s behalf
at trial all contained very little documentation. Yet each
of these individuals testified that they saw Mr. Posada
for treatment several days per week for extended
periods of time during the relevant timeframe. App.
53a, 55a-58a, 61a, 64a, 66a.
Mr. Posada argued that this evidence, and other
similar evidence presented during his trial,
demonstrated that the government failed to meet its
burden of proving a loss of $3.5 million, much less
$4,087,736. As such, Mr. Posada contended that he
should not be subjected to an 18 level increase in his
offense level for purposes of formulating his sentencing
guideline range.
The district court concluded that “[o]n balance, I
do believe that the government’s calculation [of
$4,087,736] is a reasonable estimate.” App. 43a. The
court “dr[e]w that [conclusion] from a number of
sources.” Id. First, the court noted that physical

5
therapists, John Tiu and Mr. Latane, testified that they
saw about 8 to 14 and 6 to 10 patients per workday
respectively. App. 43a. In the court’s view, if it “were to
credit Dr. Posada with more than 20 patients per day,
then we are coming close to doubling what, for example,
the maximum number of patients that Latane saw per
day.” Id. The court coupled this assessment with its
observation that there was “trial testimony from
patients, including Ms. Nunn and Ms. Turnage, . . . that
their treatments were like in the 15-to-20 minute
range,” such that “if you have 20 minutes per patient in
terms of their treatment, and 6- to 7-hour workdays,
that is 18 to 21 patients per day.” Id.
Second, although the district court acknowledged
that it was the surveilling agent’s contemporaneous
assessment that the 26 people he saw entering Mr.
Posada’s office on the morning of November 4, 2015
were “patients,” the court concluded that the surveilling
agent’s assessment “doesn’t quite make sense.” App.
43a. Specifically, the court noted that if those 26
individuals who entered Mr. Posada’s office during the
2 hours and 15 minutes the agents performed
surveillance were patients, “that would mean that they
were getting treatments that lasted 5.2 minutes, if you
do the math. And that is if each patient was lined up
perfectly outside of the exam room to start the
treatment, or Dr. Posada was moving instantaneously
from room to room and giving treatment in that time
block.” App. 43a-44a.
The district court concluded that this did not
“square with the patients’ testimony of treatments

6
between 15 and 20 minutes.” App. 44a. The court
reached a similar conclusion with respect to the second
instance of surveillance, noting that “when there was
four hours’ worth of surveillance and 25 patients, that
works out to about 9.6 minutes per patient. And, again,
it doesn’t square with the 15- to 20-minute treatment
time.” Id. The court further noted that the “sample size
of a couple of days [of surveillance] . . . doesn’t overcome
all the other evidence that supports 20 patients as being
a generous estimate, such as the number of patients
that Tiu and Latane say they themselves saw.” Id.
Third, the district court found that “the other
characterizations of the testimony from the defense
witnesses, they are basically a lot of adjectives without
a lot of concrete facts; you know, that he was very busy
and that there was standing room only. It is difficult to
square again with the amount of time it takes to treat
these individuals for spinal manipulations.” App. 44a.
Finally, and in the district court’s view, “probably
the most important point as to why this estimate is
reasonable is that it is a lack of actual patient records
that has put us and put the defendant in this situation.”
App. 45a. The court noted that a lack of documentation
is one way to “obfuscate the fraud.” Id. In the district
court’s view “to reward [Mr. Posada] for the absence of
records, I think, is an unreasonable approach to
determine a reasonable estimate.” Id. The court further
explained that “[i]t might be a different case if there
weren’t so many thousands of false billings. . . . I think
I would require more from the government in terms of
precision.” Id. For all of these reasons, the court

7
determined that the government’s loss calculation was
premised on a reasonable estimate, such that the loss
amount is $4,087.736. App. 46a. Accordingly, the
district court increased Mr. Posada’s offense level by 18
levels, such that his total offense level was 26. Id. With
a criminal history category I, the court found Mr.
Posada’s advisory guideline range to be 63 to 78
months. Id.
The district court sentenced Mr. Posada to a term
of 60 months’ imprisonment. App. 1a. In handing down
this sentence that was three months below the low end
of the advisory guideline range, the court noted a
number of points of mitigation, including (i) the fact
that Mr. Posada would be separated from his family and
church community; (ii) that Mr. Posada had helped “a
lot of patients,”; (iii) that Mr. Posada’s medical and
mental health issues would make prison more difficult
for him than it would otherwise be for someone who did
not suffer from such conditions; and (iv) that Mr.
Posada did not pose a risk of recidivism. App. 47a-50a.
Mr. Posada appealed the 60-month sentence
imposed by the district court to the United States Court
of Appeals for the Seventh Circuit. Mr. Posada argued
that in calculating his loss amount to be $4,087,736, the
district court clearly erred in several key respects.
These errors led the district court to mistakenly accept
the government’s flawed assumption that Mr. Posada
only saw 20 patients a day, three days a week.
Specifically, Mr. Posada argued that the district court
clearly erred by (i) concluding that the number of
patients Mr. Tiu and Mr. Latane saw supported the

8
government’s flawed assumption that Mr. Posada only
saw approximately 20 patients a day, three days a
week; (ii) failing to recognize that the government’s own
surveillance evidence demonstrated that Mr. Posada
saw far more than 20 patients per day; (iii) not
recognizing the full import of the trial testimony of Mr.
Posada’s patients in calculating the loss amount; and
(iv) disregarding substantial evidence of services Mr.
Posada provided because of an absence of records. While
Mr. Posada readily admitted that he erroneously
submitted a significant number of claims to health care
benefit programs between 2008 and 2016, he contended
that the evidence presented at trial, by way of
government witnesses, patient testimony, and even
government surveillance, demonstrated that (i) Mr.
Posada saw far more than 20 patients a day, three days
a week, and that (ii) the loss amount in this case should
be far below $3.5 million, much less $4,087,736.
The court of appeals affirmed Mr. Posada’s
sentence. App. 1a-6a. In reaching this conclusion, the
court first explained that Mr. Posada’s “argument here
is the same as his argument before the district court: he
would prefer a different interpretation of the
Government’s evidence used to determine the loss
amount.” App. 6a. The court further observed that “[t]o
disturb the district court’s determination, [Mr. Posada]
must show a clear error. He has not.” Id. According to
the appellate court, “the district court carefully
considered the recommendation contained in the PSIR
and evaluated the evidence used to reach that
conclusion.” Id. Additionally, “[t]he court articulated its

9
myriad considerations for determining the loss amount
and his refusal to adopt Posada’s patient
recommendation.” App. 6a.
REASONS FOR GRANTING THE PETITION
This Court should grant review to address the
court of appeals’ failure to properly apply this Court’s
well-established guidance for evaluating a district
court’s loss determination at sentencing. The court of
appeals correctly identified the “clear error” standard of
review as the applicable standard for purposes of
assessing the district court’s loss determination. App.
2a-3a; See, e.g., Braxton v. United States, 500 U.S. 344,
350 (1991) (“[The clearly erroneous standard] is, of
course, the standard applied, when reviewing a
sentence, to findings of fact.”). The court of appeals also
appropriately recognized, as this Court has explained,
that pursuant to this standard, it should only “disturb
the district court’s findings if ‘we are left with the
definite and firm conviction that a mistake has been
committed.’” Id. at 3a. (quoting United States v.
Severson, 569 F.3d 683, 689 (7th Cir. 2009)); see also
Anderson v. Bessemer City, 470 U.S. 564, 573-74 (1985)
(“[A] finding is ‘clearly erroneous’ when although there
is evidence to support it, the reviewing court on the
entire evidence is left with a definite and firm
conviction that a mistake has been committed.”)
(citations omitted). While Mr. Posada acknowledges
that this is a deferential standard of review, see, e.g.,
Flowers v. Mississippi, 139 S.Ct 2228, 2266 (2019)
(“Under this clear-error standard of review, ‘where
there are two permissible views of the evidence, the

10
factfinder’s choice between them cannot be clearly
erroneous.’” (quoting Anderson, 470 U.S. at 574);
Glossip v. Gross, 135 S.Ct. 2726 (2015) (“[The clearly
erroneous] standard does not entitle us to overturn a
finding ‘simply because we are convinced that we would
have decided the case differently.’”) (quoting Anderson,
470 U.S. at 573), he respectfully submits that the court
of appeals committed significant and consequential
errors in applying this standard.
Specifically, the court of appeals incorrectly
suggested that Mr. Posada’s argument on appeal was
“the same as his argument before the district court: he

would prefer a different interpretation of the
Government’s evidence used to determine the loss
amount.” App. 6a. (emphasis added). This is not an
accurate assessment of Mr. Posada’s arguments.
Importantly, these errors were not mere matters of
“interpretation.” Id. Nor did they simply involve “two
permissible views of the evidence.” Flowers, 139 S.Ct
at 2266 (quoting Anderson, 470 U.S. at 574). As
explained below, Mr. Posada presented the court of
appeals with concrete instances where the district court
erred. These errors led the district court to adopt the
government’s flawed assumption that Mr. Posada only
saw 20 patients a day, three days a week, such that the
loss amount attributable to Mr. Posada was $4,087,736.
And that erroneous conclusion led to Mr. Posada being
mistakenly subjected to a higher guideline range, and,
ultimately, a longer term of imprisonment.

11
I.

The Court of Appeals Failed to Acknowledge the
District Court’s Clear Error in Disregarding
Critical Government Surveillance Evidence
Readily Demonstrating Mr. Posada Saw More
than 20 Patients a Day

A key component of Mr. Posada’s argument that
the government was wrong to suggest he only saw 20
patients per day, three days a week, was the
government’s own surveillance of Mr. Posada’s office
during the relevant time period. For example, as noted
above, on November 4, 2015, the surveilling case agent
noted that between 8:47 a.m. and 11:00 a.m.,
“[a]pproximately 26 individuals entered 4354 W. 63rd
St., Chicago, IL [Mr. Posada’s office]. Individuals
entered through the side door and front door of the
building. Majority of patients were elderly.” App. 112a.
Similarly, on November 13, 2015, government agents
observed 25 patients and a physical therapist enter Mr.
Posada’s office over the course of approximately four
hours and 8 minutes. App. 113-18a. These examples,
both separately and combined with other evidence,
demonstrate that Mr. Posada saw more than 20
patients per day over the course of an entire work day.
Nevertheless, the district court disregarded the
reports’ evidentiary value:
Now, I appreciate the defendant’s
argument, as is always well-argued by Mr.
DeVooght, but on the surveillance
evidence, which was two days’ worth of
surveillance for the 25 and 26 patients,

12
yes, I understand the 302 labeled it -labeled the individuals as patients, but
even that doesn’t quite make sense.

Because if, for example, on the day that
there was two hours and 15 minutes, the
FBI saw 25 -- or is it 26, 26 patients on that
day, I think that was the 26 patient day,
that would mean that they were getting
treatments that lasted 5.2 minutes, if you
do the math. And that is if each patient
was lined up perfectly outside of the exam
room to start the treatment, or Dr. Posada
was moving instantaneously from room to
room and giving treatment in that time
block. And that is not -- that doesn’t square
with the patients’ testimony of treatments
between 15 and 20 minutes.
App. 43a-44a. The district court made a critical
error in disregarding the government’s surveillance
evidence. Specifically, the court incorrectly recalled the
government’s evidence in a fundamental respect. The
surveilling agent did not suggest when or even if any or
all of these “patients” left Mr. Posada’s office during
that 2 hour and 15 minute timeframe on November 4,
2015. App. 43a-44a, 111-12a. Indeed, the agent’s next
entry on the report for that day simply explained that
“[l]ights are on and office appears open. Due to other
case commitments, Surveillance ended.” App. 112a.
Thus, the very premise of the district court’s decision to
disregard the government’s surveillance for that day—

that all 26 “patients” were treated in 2 hours and 15

13

minutes such that (assuming 15 to 20 minutes per
patient) Mr. Posada only spent 5.2 minutes with each
patient was flawed. Indeed, even assuming the district
court’s premise of Mr. Posada seeing each patient for 15
to 20 minutes, each of those 26 “patients” could easily
have been seen and treated over the course of some
period of time during and after the case agent
admittedly discontinued surveillance at 11 a.m. This
error is not, as the court of appeals suggested, a matter
of interpretation. It is clear and important.
Unfortunately, however, while the court of appeals
briefly summarized the district court’s decision to
disregard the surveillance evidence, App. 4a-6a, it did
not acknowledge, much less analyze the impact of this
error on the district court’s loss amount calculation.
The district court’s clear error with respect to the
government’s surveillance evidence was further
exacerbated by its mistaken assumption that the
evidence demonstrated that Dr. Posada physically
spent 15 to 20 minutes with each patient. Respectfully,
here again, the district court misapprehended the
evidence. As Mr. Posada explicitly highlighted for the
court of appeals, the trial testimony demonstrated that
none of these witnesses ever explained that Mr. Posada
spent 15-to-20 minutes physically present with them in
a treatment room, much less performing spinal
manipulations. Instead, this testimony described
different forms of treatment they received from Mr.
Posada while in his office, including treatment such as
electrostimulation and “heat” that Mr. Posada could
simply secure to a patient’s back and leave the patient

14
to “la[y] there, relaxed,” as Mr. Posada’s patients
described. App. 58a, 61a, 79a-80a.
This testimony, properly recalled, is consistent
with the court’s observation that there was agreement
among the parties that the spinal manipulation code,
CPT code 98941, applied to the services Mr. Posada
provided during these sessions. App. 43a. Critically, the
government did not present any evidence at trial,
sentencing or on appeal suggesting there was any
minimum amount of time that such spinal
manipulations should take pursuant to the appropriate
CPT code—unlike the CPT codes for physical therapy
Mr. Latane and Mr. Tiu described at trial. App. 69a70a, 73a.
The patients’ testimony is also consistent with
Mr. Latane’s acknowledgment that he was “able to
observe that on average there were you would see that
there were three to four patients in the patient rooms
that [Mr. Posada] was going in and out of.” App. 75a.
Indeed, a map the government created of Mr. Posada’s
office demonstrated that there were as many as seven
different treatment rooms in which patients could be
simultaneously present for “treatment sessions” that
included services that did not require Mr. Posada to be
physically present in the room with the patients. App.
109a.
This additional misstep caused the district court
to similarly discount the government’s second day of
key surveillance, where agents personally observed

15
some 25 different people enter and exit Mr. Posada’s
office over the course of four hours and 16 minutes:
And even on the next day when there was
four hours’ worth of surveillance and 25
patients, that works out to about 9.6
minutes per patient. And, again, it doesn’t
square with the 15- to 20-minute
treatment time.
App. 44a. Properly understood, this evidence readily
demonstrated that Mr. Posada could have easily treated
all 25 of these individuals over a 4 hours and 16 minute
time period. These collective, clearly erroneous
mistakes caused the district court to discount incredibly
important evidence that was critical to the loss amount
determination—evidence from the government that

directly contradicts the government’s position at
sentencing. The court of appeals’ failure to address,
much less remedy these concrete errors calls for this
Court’s intervention.
II.

The Court of Appeals Failed to Acknowledge the
District Court’s Clear Error in Concluding that
the Number of Patients Mr. Tiu and Mr. Latane
Saw Supported the Government’s Flawed
Assumption that Mr. Posada Only Saw
Approximately 20 Patients a Day, Three Days a
Week.

The district court clearly erred in concluding that
the work flow of physical therapists, Mr. Tiu and Mr.
Latane, supported the government’s flawed assumption
that Mr. Posada only saw approximately 20 patients a

16
day, three days a week. Specifically, the court first
noted that Mr. Tiu and Mr. Latane explained that they
saw about 8 to 14 to 6 to 10 patients respectively per
work day. App. 43a. From this observation, the court
reasoned that “if we were to credit Dr. Posada with
more than 20 patients per day, then we are coming close
to doubling what, for example, the maximum number of
patients that Latane saw per day.” Id. Thereafter, the
court reasoned that “if you have 20 minutes per patient
in terms of their treatment, and 6- to 7-hour workdays,
that is 18 to 21 patients per day.” Id.
The district court’s reasoning was flawed in two
key respects. First, the government’s evidence at trial
demonstrated that neither Mr. Tiu nor Mr. Latane ever
worked schedules that came close to resembling that of
Mr. Posada. At trial, Mr. Latane testified that he would
see patients at Mr. Posada’s office from 3 p.m. to 7 p.m.
or 8 p.m., and that Mr. Posada was always at the office
the entire time Mr. Latane was there. App. 74a.
Importantly, the government’s own surveillance
evidence demonstrated that Mr. Posada was also at the
office seeing substantial numbers of patients for

extended periods of time beyond the time Mr. Latane
was spending at the office seeing patients. App. 11118a. For example, government surveillance confirmed
that Mr. Posada saw 26 “patients” from 8:25 a.m.
through 12:33 p.m. November 13, 2015, separate and
apart from the evening timeframe when Mr. Latane
was in the office seeing patients along with Mr. Posada.
App. 74a, 113-18a.

17
Mr. Tiu testified that he “usually” saw patients
at Mr. Posada’s office on Saturdays. However, the
evidence was clear that Mr. Posada saw the bulk of his
patients on Mondays, Wednesdays and Fridays, not
Saturdays.
Second, and perhaps even more importantly, the
government’s evidence at trial demonstrated that Mr.
Tiu and Mr. Latane provided very different and

significantly more time consuming services to patients.
Mr. Latane’s testimony and explanation of documents
he prepared in connection with patients he saw at Mr.
Posada’s office demonstrated that he saw patients for
“[a]nywhere from 30 minutes to an hour.” App. 72a
(emphasis added). As the evidence at trial showed,
these time parameters directly related to the fact that
Latane was providing and billing for physical therapy
services, pursuant to CPT codes 97001 and 97110. App.
73a.
Mr.
Tiu’s
paperwork
and
testimony
demonstrated that he spent approximately 30 minutes
with patients. App. 69a-70a. Here again, the time Mr.
Tiu spent with these patients directly related to the
physical therapy-related services he was providing
pursuant to CPT codes 97001. Id.
Critically, as noted above, the evidence at trial
demonstrated that the services Mr. Posada provided to
his patients—spinal manipulations pursuant to CPT
code 98941—did not require him to spend nearly as
much time being physically present with each patient
as was required for Mr. Tiu and Mr. Latane. Indeed,

18

even the district court’s flawed assumption that Mr.
Posada physically spent 15 to 20 minutes with patients
meant that Mr. Latane and Mr. Tiu still spent up to four
times longer with patients than Mr. Posada during
their more limited work schedules. Moreover, as also
explained above, the evidence readily demonstrated
that Mr. Posada provided treatment to multiple
patients at the same time and did not physically spend
15 to 20 minutes with each patient. App. 75a.
For all of these reasons, drawing such a flawed
correlation between Mr. Posada and Mr. Latane/Mr.
Tiu is not simply a matter of interpretation. App. 5a-6a.
Nor is it an example of there being “two permissible
views of the evidence.” Flowers, 139 S.Ct at 2266
(quoting Anderson, 470 U.S. at 574). The district court
clearly erred when it concluded that “credit[ ing] Dr.
Posada with more than 20 patients per day,” because
that would mean “coming close to doubling what . . . the
maximum number of patients that Latane saw per day.”
App. 43a. Here again, the court of appeals did not
acknowledge these errors, much less analyze their
impact on the district court’s loss amount calculation.
Instead, the appellate court briefly summarized the
district court’s decision to draw this improper
correlation, and later stated that it found no error at
sentencing. The court of appeals’ failure to address,
much less remedy these consequential errors calls for
this Court’s intervention.

19
III.

The Court of Appeals Failed to Acknowledge the
District Court’s Clear Error in Disregarding
Substantial Evidence of Services Dr. Posada
Provided Because of an Absence of Records

In adopting the government’s view that “20
[patients a day] is a reasonable estimate,” the district
court explained that “probably the most important point
as to why this estimate is reasonable is that it is a lack
of actual patient records that has put us and put the
defendant in this situation.” App. 45a. Noting that Mr.
Posada was administratively required to keep such
records, the court observed that failing to keep such
documentation is “one way to . . . obfuscate the fraud.”
Id. The court further expressed its desire not to “reward
[Mr. Posada] for the absence of records.” Id. As such, the
court explained that it might “require more from the
government in terms of precision,” if “there weren’t so
many thousands of false billings.” Id.
Mr. Posada respectfully submits that in its desire
to avoid the possibility of “reward[ing]” him for the
absence of records, id., the district court erroneously
disregarded extensive evidence demonstrating that in

literally thousands of instances, despite the lack of
documentation, Mr. Posada provided valuable services
to patients. For example, four of Mr. Posada’s patients
testified that they, collectively, saw Mr. Posada almost
1500 times over the course of the vast majority of the
relevant time period, App. 53a, 55a-58a, 61a, 64a, 66a,
despite the fact that Mr. Posada had virtually no
records documenting these visits. And this number can
reasonably be increased exponentially when taken

20
together with the testimony of these same individuals
regarding the many other patients they personally
observed at Mr. Posada’s office over the course of this
same extended time period. App. 54a-56a, 58a-59a, 61a,
64a-65a.
Importantly, the testimony of the government’s
witnesses only further underscores the point. For
example, Claudia Carballo testified that she and her
husband saw Mr. Posada three times a week for six or
seven months, App. 76a-77a, which adds up to
anywhere from approximately 156 to 182 visits. Despite
this clear testimony as to the services Mr. Posada
provided, Mr. Posada had no documentation of these
visits. Similarly, Myrna Walker—also a government
witness—had records demonstrating Mr. Posada
provided her with chiropractic services 54 times. Here
again, however, Mr. Posada had no such records.
Finally,
Ruth
Anderson—another
government
witness—acknowledged that she may have seen Mr.
Posada once a week for up to six months. App. 78a-79a.
But yet again Mr. Posada has no record of such visits.
Unfortunately, the district court mistakenly
chose to disregard the clear import of this patient
testimony, concluding that it consisted “basically [of] a
lot of adjectives without a lot of concrete facts; you
know, that he was very busy and that there was
standing room only,” and noting that this testimony
was “difficult to square again with the amount of time
it takes to treat these individuals for spinal
manipulations.” App. 44a.

21
First, for the reasons explained above, the
district court’s suggestion that he should disregard the
testimony of individuals who visited Mr. Posada almost
1500 times because it did not square with the court’s
flawed math is not valid. Second, while it is true that
these patients, most of whom were elderly,
understandably spoke in non-judicial and general
terms, the import of their testimony was clear. Indeed,
the government never challenged either the frequency
with which these patients said they saw Mr. Posada, or
their descriptions of the volume of patients in Mr.
Posada’s office when they were there. Similarly, the
government failed to call any rebuttal witnesses—such
as other patients—to suggest that Mr. Posada’s office
was not “standing room only” or that there were always
“a lot of patients” in the office. App. 54a-65a. Finally,
any lingering doubt as to the value of this unchallenged,
first-hand testimony is put to rest when one considers
other evidence in the case, such as the government’s
own surveillance, describing 26 “patients” and 25
individuals going into Mr. Posada’s office in a matter of
approximately two to four hours. App. 111-18a.
Accordingly, the district court clearly erred when
it disregarded substantial evidence of services Mr.
Posada provided because of an absence of records.
Respectfully, Mr. Posada submits that this is a third
concrete instance in which the court of appeals did not
acknowledge an important error, much less analyze its
impact on the district court’s loss amount calculation.
Thus, either on its own, or collectively with the other

22
errors set out herein, this misstep by the court of
appeals calls for this Court’s intervention.1
CONCLUSION
For the foregoing reasons, the Court should grant a writ
of certiorari.

Respectfully submitted,

ANDREW R. DEVOOGHT

Counsel of Record

LOEB & LOEB LLP
321 N. Clark Street
Suite 2300
Chicago, IL 60654
(312) 464-3100
adevooght@loeb.com
October 16, 2019

Mr Posada also asserts that the federal district court did
not, in the first instance, have either subject matter or
territorial jurisdiction over him.

1

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
————
No. 18-1586
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
HENRY POSADA,
Defendant-Appellant.
————
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 17 CR 00165-1 – Edmond E. Chang, Judge.
————
ARGUED APRIL 3, 2019 –
DECIDED JULY 18, 2019
————
Before WOOD, Chief Judge, and BAUER and ROVNER,
Circuit Judges.
BAUER, Circuit Judge. Henry Posada (“Posada”) was
found guilty of 18 counts of health care fraud by a jury.
At sentencing, the district court found a loss amount
of $4,087,736, and imposed a sentence of 60 months in
the custody of the Bureau of Prisons. Posada appeals
his sentencing, arguing that the district court’s loss
calculation is clearly erroneous. We disagree, and for
the following reasons, affirm.

2a
I. BACKGROUND
Posada was a licensed chiropractor and the owneroperator of Associated Back Care and Rehabilitation,
doing business as Spine Clinics of America, S.C.
(“Spine Clinics”). Spine Clinics provided chiropractic
and physical therapy services and was a Medicare
enrolled provider. In March 2017, Posada was indicted
for a scheme to defraud Medicare and other health
care benefits programs (“Insurers”) by submitting fraudulent claims and falsely representing that certain
health care related services were provided.
At trial, the Government presented evidence that
Posada billed Insurers for deceased patients and services never performed, created fake files to cover-up
his fraud, and failed to document the actual services
rendered. Witnesses from Medicare and an Insurer
testified regarding the thousands of claims submitted.
Two physical therapists also testified about the services
they performed for Spine Clinics, how they billed
Posada, and that they never performed many of the
services for which he charged Insurers and Medicare.
Following Posada’s conviction, the Government submitted a Presentence Investigation Report (“PSIR”)
that had an offense level of 26, due in large part to a
loss amount of $4,087,736, and recommended a term
of incarceration between 63 and 78 months.
To calculate the loss amount the Government
reviewed files seized from Spine Clinics, and when no
documentation in support of treatment was present,
the amount billed was treated as a loss. The Government also credited Posada with, among other things,
treating 20 patients a day (10 Insurer patients and
10 Medicare patients), three days a week every week
during the period of the fraud. Posada argued for an
estimate of 25 or 26 patients per day and a loss amount

3a
less than $3.5 million dollars. But, the district court
found that the Government’s loss calculation was
premised on a reasonable estimate and found a loss
amount of $4,087,736.
II. DISCUSSION
Posada contends that the district court’s loss amount
determination was clearly erroneous. Posada argues
that the Government relied on flawed assumptions to
determine the number of patients treated in a day and
the district court inappropriately discounted evidence
demonstrating he saw in excess of 20 patients per day,
three days per week. He suggests the total loss amount
was below $3.5 million, and he saw far more than 20
patients per day.
A. Standard of Decision
We review the district court’s loss determination for
clear error. United States v. Frith, 461 F.3d 914, 917
(7th Cir. 2006). “A loss determination must be based
on the conduct of conviction and relevant conduct that
is criminal or unlawful, and the government must
demonstrate by a preponderance of the evidence that
the loss amount is attributable to that criminal or
unlawful conduct.” United States v. Orillo, 733 F.3d
241, 244 (7th Cir. 2013) (citing United States v.
Littrice, 666 F.3d 1053, 1060 (7th Cir. 2012)). We will
only disturb the district court’s findings if “we are left
with the definite and firm conviction that a mistake
has been committed.” United States v. Severson, 569
F.3d 683, 689 (7th Cir. 2009) (internal citations and
quotations omitted).
During sentencing, the district court may rely on
information presented in the PSIR “so long as this
information ‘has sufficient indicia of reliability to support
its probable accuracy.’” United States v. Sunmola, 887

4a
F.3d 830, 839 (7th Cir. 2018) (quoting United States v.
Vivit, 214 F.3d 908, 916 (7th Cir. 2000)). “When the
district court relies on information contained in the
[PSIR], the defendant bears the burden of showing the
information is inaccurate or unreliable.” Id. (citing
United States v. Heckel, 570 F.3d 791, 795 (7th Cir.
2009)). A bare denial is not enough. United States v.
Betts-Gaston, 860 F.3d 525, 539 (7th Cir. 2017), cert.
denied, 138 S. Ct. 689 (2018).
B. The District Court Correctly Relied on Information Contained in the PSIR to Determine
the Loss Amount
Following trial, the Government submitted a PSIR
compiled by the Probation Department; the Government’s
sentencing memorandum agreed with the loss calculations reached in the PSIR. The initial loss amount was
calculated to be $5,182,988. The loss was reached by
reviewing files seized from Spine Clinics and Posada,
and where there was no documentation to support the
services billed, that amount was treated as a loss.
But, to reach the reduced loss figure, $4,087,736,
Posada was credited for seeing 20 patients per day,
three days per week for the duration of the fraud. In
reaching that number the Government considered
Posada’s patient witnesses and concluded that he saw
at a minimum of 10 patients per day. The Government
also considered the testimony of Posada’s wife who
testified that he worked at least three days per week.
The Government also credited Posada with seeing
a large number of patients on an ad hoc basis, for
example he was credited with seeing 60 patients per
day for 15 days from July 7, 2014, through August 8,
2014. Moreover, Posada was given credit for 20 patients
per day, three days per week for the duration of the

5a
fraud, even during times when the Government knew
him to be traveling or hospitalized.
Posada argued, in his filed objections to the PSIR
and at sentencing, that the Government failed to
interview many of the potential patients that were
observed during the two surveillance operations conducted; that the Government placed too much weight
on the testimony of John Tiu and Richard Latane
because the services they rendered were different than
those performed by Posada; and that not enough
weight was given to patient testimony because in some
cases the care provided outweighed the care billed.
At sentencing, the district court considered the
PSIR as well as Posada’s objections. The district court
judge stated that he considered the testimony of Mr.
Tiu and Mr. Latane and the number of patients they
saw—noting that if Posada were given credit for more
than 20 patients per day it would be over double the
number Mr. Tiu and Mr. Latane saw. He considered
the patient testimony which stated that treatments
were typically 15 to 20 minutes long—noting that 15
to 20 minute treatments translated to between 18
and 21 patients in a 6 to 7 hour workday. The judge
also considered the FBI surveillance conducted and
discounted the number of “patients” observed because
if Posada were treating each of the observed patients,
their treatments would have been approximately 5
minutes on the first surveillance date and less than 10
minutes on the second date—considerably less than
the 15 to 20 minutes treatment range articulated by
the testifying patients.
Finally, the district court judge observed that the
objections of the defense were “a lot of adjectives without a lot of concrete facts[.]” Transcript of Sentencing
Hearing at 16, USA v. Posada, No. 1:17-cr-165 (Feb.

6a
13, 2018). Essentially, the testimony was that Posada’s
practice was always very busy but no other evidence
supported this position. The court concluded that 20
patients per day, three days per week was a reasonable
estimate and the single greatest factor was the lack of
actual patient records and so in these circumstances
crediting Posada with more would reward him for
absence of records.
Posada’s argument here is the same as his argument
before the district court: he would prefer a different
interpretation of the Government’s evidence used to
determine the loss amount. However, to have the court
reach a different result, Posada was required to present
some evidence that called the PSIR into question. To
disturb the district court’s determination, he must
show a clear error. He has not.
III. CONCLUSION
At sentencing, the district court carefully considered
the recommendation contained in the PSIR and evaluated the evidence used to reach that conclusion. The
court articulated its myriad considerations for determining the loss amount and his refusal to adopt
Posada’s patient recommendation. Because we find no
error at sentencing, we AFFIRM.

7a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
————
Case Number: 17 CR 00165
USM Number: 51972-424
————
UNITED STATES OF AMERICA
v.
HENRY POSADA
————
Mr. Andrew R. DeVooght
Defendant’s Attorney
————
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:
 pleaded guilty to count(s)
 pleaded nolo contendere to count(s)
accepted by the court.

which was

 was found guilty on count(s) 1-18 after a plea of not
guilty.
The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

Offense
Ended

Counts

18 U.S.C.
§ 1347

Health care
fraud

12/2006

1-18

8a
The defendant is sentenced as provided in pages 2
through 8 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
 The defendant has been found not guilty on
count(s)
 Count(s)
States.

dismissed on the motion of the United

It is ordered that the defendant must notify the United
States Attorney for this District within 30 days of any
change of name, residence, or mailing address until
all fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court
and United States Attorney of material changes in
economic circumstances.
February 13, 2018
Date of Imposition of
Judgment
/s/ Edmond E. Chang
Signature of Judge
Edmond E. Chang - United
States District Court Judge
Name and Title of Judge
February 23, 2018
Date

9a
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of: Sixty (60) months on each of Counts
1 through 18, all to run concurrently with one another.
 The court makes the following recommendations to
the Bureau of Prisons:
The Court recommends placement at a BOP facility as
close to Chicago as possible (1st priority) or placement
at a BOP facility with low altitude (2nd priority), in
light of a medical condition.
 The defendant is remanded to the custody of the
United States Marshal.
 The defendant shall surrender to the United States
Marshal for this district:
 at

on ___

 as notified by the United States Marshal.
 The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:
 before 2:00 pm on June 19, 2018.
 as notified by the United States Marshal.
 as notified by the Probation or Pretrial
Services Office.
RETURN
I have executed this judgment as follows:

Defendant delivered on
to
with a certified copy of this judgment.

at

,

10a
UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL
MANDATORY CONDITIONS OF SUPERVISED
RELEASE PURSUANT TO 18 U.S.C. § 3583(d)
Upon release from imprisonment, you shall be on
supervised release for a term of: One (1) year on each
of Counts 1-18, all to run concurrently to one another.
You must report to the probation office in the district
to which you are released within 72 hours of release
from the custody of the Bureau of Prisons. The court
imposes those conditions identified by checkmarks
below:
During the period of supervised release:
 (1) you shall not commit another Federal, State, or
local crime.
 (2) you shall not unlawfully possess a controlled
substance.
 (3) you shall attend a public, private, or private
nonprofit offender rehabilitation program that has
been approved by the court, if an approved program
is readily available within a 50-mile radius of your
legal residence. [Use for a first conviction of a domestic violence crime, as defined in § 3561(b).]
 (4) you shall register and comply with all requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16913).
 (5) you shall cooperate in the collection of a DNA
sample if the collection of such a sample is required
by law.

11a
 (6) you shall refrain from any unlawful use of a
controlled substance AND submit to one drug test
within 15 days of release on supervised release and
at least two periodic tests thereafter, up to 104 periodic tests for use of a controlled substance during
each year of supervised release. [This mandatory
condition may be ameliorated or suspended by
the court for any defendant if reliable sentencing
information indicates a low risk of future substance
abuse by the defendant.]
DISCRETIONARY CONDITIONS OF
SUPERVISED RELEASE PURSUANT TO
18 U.S.C. § 3563(b) AND 18 U.S.C. § 3583(d)
Discretionary Conditions – The court orders that you
abide by the following conditions during the term of
supervised release because such conditions are reasonably related to the factors set forth in § 3553(a)(1) and
(a)(2)(B), (C), and (D); such conditions involve only
such deprivations of liberty or property as are reasonably necessary for the purposes indicated in § 3553
(a)(2) (B), (C), and (D); and such conditions are consistent with any pertinent policy statement issued by
the Sentencing Commission pursuant to 28 U.S.C.
994a. The court imposes those conditions identified by
checkmarks below:
During the period of supervised release:
 (1) you shall provide financial support to any
dependents if financially able.
 (2) you shall make restitution to a victim of
the offense under § 3556 (but not subject to the
limitation of § 3663(a) or § 3663A(c)(1)(A)).
 (3) you shall give to the victims of the offense
notice pursuant to the provisions of § 3555, as
follows: ____

12a
 (4) you shall seek, and work conscientiously at,
lawful employment or pursue conscientiously a
course of study or vocational training that will
equip you for employment.
 (5) you shall refrain from engaging in a specified
occupation, business, or profession bearing a
reasonably direct relationship to the conduct
constituting the offense, or engage in such a
specified occupation, business, or profession only to
a stated degree or under stated circumstances; (if
checked yes, please indicate restriction(s)) ____.
 (6) you shall refrain from knowingly meeting or
communicating with any person whom you know to
be engaged, or planning to be engaged, criminal
fraud.
 visiting the following type of places: ____.
 knowingly meeting or communicating with the
following persons: ____.
 (7) you shall refrain from  any or  excessive use
of alcohol (defined as  having a blood alcohol
concentration greater than 0.08); or  ____, or any
use of a narcotic drug or other controlled substance,
as defined in § 102 of the Controlled Substances
Act (21 U.S.C. § 802), without a prescription by a
licensed medical practitioner.
 (8) you shall refrain from possessing a firearm,
destructive device, or other dangerous weapon.
 (9)  you shall participate, at the direction of a
probation officer, in a substance abuse treatment
program, which may include urine testing up to a
maximum of 104 tests per year.
 you shall participate, at the direction of a
probation officer, in a mental health treatment

13a
program, which may include the use of prescription
medications. However, the defendant may object
to the use of prescription medications by filing an
objection within 10 days of being instructed to use
prescription medication.
 you shall participate, at the direction of a
probation officer, in medical care; (if checked yes,
please specify: ____.)
 (10) (intermittent confinement): you shall remain
in the custody of the Bureau of Prisons during
nights, weekends, or other intervals of time,
totaling ____ [no more than the lesser of one year
or the term of imprisonment authorized for
the offense], during the first year of the term
of supervised release (provided, however, that a
condition set forth in § 3563(b)(10) shall be imposed
only for a violation of a condition of supervised
release in accordance with § 3583(e)(2) and only
when facilities are available) for the following
period ____.
 (11) (community confinement): you shall reside at,
or participate in the program of a community
corrections facility (including a facility maintained
or under contract to the Bureau of Prisons) for all
or part of the term of supervised release, for a
period of ____ months.
 (12) you shall work in community service for
____ hours as directed by a probation officer.
 (13) you shall reside in the following place or area:
____, or refrain from residing in a specified place or
area: ____.

14a
 (14) you shall remain within the continental
United States, unless granted permission to leave
by the court or a probation officer.
 (15) you shall report to a probation officer as
directed by the court or a probation officer.
 (16) you shall permit a probation officer to visit
you  at any reasonable time or  as specified:
 at home
 at work
 at school
 at a community service location  other
reasonable location specified by a probation officer
 you shall permit confiscation of any contraband
observed in plain view of the probation officer.
 (17) you shall notify a probation officer promptly,
within 72 hours, of any change in residence,
employer, or workplace and, absent constitutional
or other legal privilege, answer inquiries by a
probation officer.
 (18) you shall notify a probation officer promptly,
within 72 hours, if arrested or questioned by a law
enforcement officer.
 (19) (home confinement): you shall remain at your
place of residence for a total of ____ months during
nonworking hours. [This condition may be imposed
only as an alternative to incarceration.]
 Compliance with this condition shall be monitored by telephonic or electronic signaling devices
(the selection of which shall be determined by
a probation officer). Electronic monitoring shall
ordinarily be used in connection with home
detention as it provides continuous monitoring of
your whereabouts. Voice identification may be used
in lieu of electronic monitoring to monitor home
confinement and provides for random monitoring of

15a
your whereabouts. If the offender is unable to wear
an electronic monitoring device due to health or
medical reasons, it is recommended that home
confinement with voice identification be ordered,
which will provide for random checks on your
whereabouts. Home detention with electronic
monitoring or voice identification is not deemed
appropriate and cannot be effectively administered
in cases in which the offender has no bona fide
residence, has a history of violent behavior, serious
mental health problems, or substance abuse;
has pending criminal charges elsewhere; requires
frequent travel inside or outside the district; or is
required to work more than 60 hours per week.
 You shall pay the cost of electronic monitoring
or voice identification at the daily contractual rate,
if you are financially able to do so.
 The Court waives the electronic/location monitoring component of this condition.
 (20) you shall comply with the terms of any court
order or order of an administrative process pursuant
to the law of a State, the District of Columbia, or
any other possession or territory of the United
States, requiring payments by you for the support
and maintenance of a child or of a child and the
parent with whom the child is living.
 (21) (deportation): you shall be surrendered to a
duly authorized official of the Homeland Security
Department for a determination on the issue of
deportability by the appropriate authority in accordance with the laws under the Immigration and
Nationality Act and the established implementing
regulations. If ordered deported, you shall not
reenter the United States without obtaining, in

16a
advance, the express written consent of the Attorney
General or the Secretary of the Department of
Homeland Security.
 (22) you shall satisfy such other special conditions
as ordered below.
 (23) (if required to register under the Sex Offender
Registration and Notification Act) you shall submit
at any time, with or without a warrant, to a search
of your person and any property, house, residence,
vehicle, papers, computer, other electronic communication or data storage devices or media, and
effects, by any law enforcement or probation officer
having reasonable suspicion concerning a violation
of a condition of supervised release or unlawful
conduct by you, and by any probation officer in
the lawful discharge of the officer’s supervision
functions (see special conditions section).
 (24) Other: ____
SPECIAL CONDITIONS OF SUPERVISED
RELEASE PURSUANT TO
18 U.S.C. 3563(b)(22) and 3583(d)
The court imposes those conditions identified by
checkmarks below:
During the term of supervised release:
 (1) if you have not obtained a high school diploma
or equivalent, you shall participate in a General
Educational Development (GED) preparation course
and seek to obtain a GED within the first year of
supervision.
 (2) you shall participate in an approved job skilltraining program at the direction of a probation
officer within the first 60 days of placement on
supervision.

17a
 (3) you shall, if unemployed after the first 60 days
of supervision, or if unemployed for 60 days after
termination or lay-off from employment, perform at
least 20 hours of community service per week at
the direction of the U.S. Probation Office until
gainfully employed. The amount of community
service shall not exceed ____ hours.
 (4) you shall not maintain employment where
you have access to other individual’s personal
information, including, but not limited to, Social
Security numbers and credit card numbers (or
money) unless approved by a probation officer.
 (5) you shall not incur new credit charges or open
additional lines of credit without the approval of a
probation officer unless you are in compliance with
the financial obligations imposed by this judgment.
 (6) you shall provide a probation officer with access
to any requested financial information necessary to
monitor compliance with conditions of supervised
release.
 (7) you shall notify the court of any material
change in your economic circumstances that might
affect your ability to pay restitution, fines, or
special assessments.
 (8) you shall provide documentation to the IRS and
pay taxes as required by law.
 (9) you shall participate in a sex offender treatment program. The specific program and provider
will be determined by a probation officer. You shall
comply with all recommended treatment which
may include psychological and physiological testing.
You shall maintain use of all prescribed medications.

18a
 You shall comply with the requirements of the
Computer and Internet Monitoring Program as
administered by the United States Probation Office.
You shall consent to the installation of computer
monitoring software on all identified computers to
which you have access. The software may restrict
and/or record any and all activity on the computer,
including the capture of keystrokes, application
information, Internet use history, email correspondence, and chat conversations. A notice will be
placed on the computer at the time of installation
to warn others of the existence of the monitoring
software. You shall not remove, tamper with, reverse
engineer, or in any way circumvent the software.
 The cost of the monitoring shall be paid by you
at the monthly contractual rate, if you are
financially able, subject to satisfaction of other
financial obligations imposed by this judgment.
 You shall not possess or use any device with
access to any online computer service at any
location (including place of employment) without
the prior approval of a probation officer. This
includes any Internet service provider, bulletin
board system, or any other public or private
network or email system.
 You shall not possess any device that could be
used for covert photography without the prior
approval of a probation officer.
 You shall not view or possess child pornography.
If the treatment provider determines that exposure
to other sexually stimulating material may be detrimental to the treatment process, or that additional
conditions are likely to assist the treatment process, such proposed conditions shall be promptly

19a
presented to the court, for a determination, pursuant to 18 U.S.C. § 3583(e)(2), regarding whether to
enlarge or otherwise modify the conditions of supervision to include conditions consistent with the
recommendations of the treatment provider.
 You shall not, without the approval of a
probation officer and treatment provider, engage in
activities that will put you in unsupervised private
contact with any person under the age of 18, or visit
locations where children regularly congregate (e.g.,
locations specified in the Sex Offender Registration
and Notification Act.)
 This condition does not apply to your family
members: ____ [Names]
 Your employment shall be restricted to the district and division where you reside or are supervised,
unless approval is granted by a probation officer.
Prior to accepting any form of employment you
shall seek the approval of a probation officer, in
order to allow the probation officer the opportunity
to assess the level of risk to the community you will
pose if employed in a particular capacity. You shall
not participate in any volunteer activity that may
cause you to come into direct contact with children
except under circumstances approved in advance
by a probation officer and treatment provider.
 You shall provide the probation officer with
copies of your telephone bills, all credit card
statements/receipts, and any other financial
information requested.
 You shall comply with all state and local laws
pertaining to convicted sex offenders, including
such laws that impose restrictions beyond those set
forth in this order.

20a
 (10) you shall pay any financial penalty that is
imposed by this judgment that remains unpaid at
the commencement of the term of supervised
release. Your monthly payment schedule shall be
an amount that is 10% of your net monthly income,
defined as income net of reasonable expenses for
basic necessities such as food, shelter, utilities,
insurance, and employment-related expenses.
 (11) you shall not enter into any agreement to act
as an informer or special agent of a law enforcement agency without the permission of the court.
 (12) you shall repay the United States “buy money”
in the amount of $ ____ which you received during
the commission of this offense.
 (13) if the probation officer determines that
you pose a risk to another person (including an
organization or members of the community), the
probation officer may require you to tell the person
about the risk, and you must comply with that
instruction. Such notification could include advising
the person about your record of arrests and convictions and substance use. The probation officer may
contact the person and confirm that you have told
the person about the risk.
 (14) Other: ____

21a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.

Totals

Assessment Fine

Restitution

$1,800.00

$4,087,736

$

 The determination of restitution is deferred until
____. An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determination.
 The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each payee
shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or
percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must
be paid before the United States is paid.
Name of Payee

Total Restitution
Loss* Ordered

Blue Cross/Blue
Shield of Illinois

$2,256,651.00

Cigna

$2,267.00

Medicare

$1,828,817.00
Totals:

Priority or
Percentage

22a
 Restitution amount ordered pursuant to plea
agreement $____
 The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the
date of the judgment, pursuant to 18 U.S.C. § 3612(f).
All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default,
pursuant to 18 U.S.C. § 3612(g).
 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
 the interest requirement is waived for the____.
 the interest requirement for the ____ is modified
as follows:
 The defendant’s non-exempt assets, if any, are
subject to immediate execution to satisfy any
outstanding restitution or fine obligations.
* Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title 18
for offenses committed on or after September 13, 1994,
but before April 23, 1996.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A  Lump sum payment of $4,089,536.00 due immediately from non-exempt assets.
 balance due not later than ____, or
 balance due in accordance with ❑ C, ❑ D,
❑ E, or  F below; or

23a
B  Payment to begin immediately (may be combined with ❑ C, ❑ D, or ❑ F below); or
C  Payment in equal ____ (e.g. weekly, monthly,
quarterly) installments of $____ over a period
of ____ (e.g., months or years), to commence
____ (e.g., 30 or 60 days) after the date of this
judgment; or
D  Payment in equal ____ (e.g. weekly, monthly,
quarterly) installments of $____ over a period
of ____ (e.g., months or years), to commence
____ (e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or
E  Payment during the term of supervised release
will commence within ____ (e.g., 30 or 60 days)
after release from imprisonment. The court will
set the payment plan based on an assessment of
the defendant’s ability to pay at that time; or
F  Special instructions regarding the payment of
criminal monetary penalties:
The financial obligations are due immediately
from any non-exempt assets. Otherwise, during
imprisonment, Defendant shall make payments
through the BOP’s Inmate Financial Responsibility Program if he decides to participate
in the Program. Any balance remaining upon
release shall be paid while on supervised
release in an amount that is equal to 10% of
Defendant’s net monthly income.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during imprisonment. All criminal monetary penalties, except those
payments made through the Federal Bureau of

24a
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
 Joint and Several
Case Number
Total
Defendant
Amount
and
Co-Defendant
Names
(including
defendant
number)

Joint and
Several
Amount

Corresponding
Payee,
if Appropriate

 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court cost(s):
 The defendant shall forfeit the defendant’s interest
in the following property to the United States: SEE
ATTACHED FORFIETURE ORDER.
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including
cost of prosecution and court costs.

25a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
No. 17 CR 165
————
UNITED STATES OF AMERICA
v.
HENRY POSADA
————
Honorable Edmond E. Chang
————
PRELIMINARY ORDER OF FORFEITURE
The United States asks this Court to issue a
preliminary order of forfeiture pursuant to Title 18,
United States Code, Section 982 and Fed. R. Crim. P.
32.2.
(a) On March 16, 2017, an indictment was returned
charging defendant HENRY POSADA with eighteen
counts of health care fraud in violation of Title 18,
United State Code, Section 1347. The indictment
sought forfeiture to the United States of any property
constituting and derived from gross proceeds traceable
to the commission of the charged offenses, obtained,
directly or indirectly, as a result of such violations,
including but not limited to the following:
1. a personal money judgment in the amount of
approximately $5,182,988;
2. $850,000 in cashier’s checks; and

26a
3. a 2013 Lexus LX 570, VIN: JTJHY7AX5D41013981;
(b) Beginning on October 23, 2017, a jury trial was
held before this Court;
(c) On October 27, 2017, the jury returned a verdict
of guilty against defendant HENRY POSADA as to all
eighteen counts of the indictment, thereby making the
property named in the indictment subject to forfeiture
pursuant to 18 U.S.C. § 982(a) which states in part:
982(a)(7) The court, in imposing sentence on a
person convicted of a Federal health
care offense, shall order the person to
forfeit property, real or personal, that
constitutes or is derived, directly or
indirectly, from gross proceeds traceable
to the commission of the offense;
(d) The United States requests that this Court enter
a preliminary order of forfeiture against defendant
HENRY POSADA as to a personal money judgment in
the loss amount calculated by the government to be
$4,087,736 and the subject Lexus, as property constituting and derived from proceeds obtained from the
Federal health care fraud offenses of conviction;
(e) Accordingly, this Court orders that a personal
money judgment be entered against the defendant for
$4,087,736, and a preliminary order of forfeiture be
entered against defendant HENRY POSADA as to a
personal money judgment in the amount of $4,087,736
and the subject Lexus. If by an act or omission on
his part funds in the amount of $4,087,736 cannot
be located to satisfy the judgment, then pursuant to
21 U.S.C. § 853(p), as incorporated by 18 U.S.C.
1

The forfeiture allegations of the indictment mistakenly list
the VIN as JTHY7AX5D4101

27a
§ 982(b)(1), the United States shall be authorized to
forfeit substitute assets of the defendant. Pursuant to
18 U.S.C. § 982(a)(7) and Fed. R. Crim. P. 32.2, all
right, title, and interest of the defendant in the foregoing property named in this order shall be forfeited to
the United States for disposition according to law.
Should further assets become available to satisfy the
judgment in the future, the United States shall file a
motion requesting permission to seize such assets and
publish notice of the intent of the United States to
forfeit them in satisfaction of the personal money
judgment;
(f) Pursuant to 21 U.S.C. § 853, as incorporated by
18 U.S.C. § 982(b)(1), and Subdivision (b)(3) of Rule
32.2 of the Federal Rules of Criminal Procedure, upon
entry of this Preliminary Order of Forfeiture, this
Court hereby authorizes the Attorney General or his
designated representatives to conduct discovery to
identify or locate property subject to forfeiture, including substitute assets, and to seize property ordered
forfeited upon such terms and conditions as set forth
by this Court;
(g) Pursuant to 21 U.S.C. § 853(g), as incorporated
by 18 U.S.C. § 982(b)(1), and Fed. R. Crim. P. 32.2, the
foregoing property shall upon entry of this preliminary
order of forfeiture be seized by the United States
Marshals Service, Federal Bureau of Investigation, or
other authorized law enforcement agency;
(h) Pursuant to 18 U.S.C. § 982(a)(7) and Fed. R.
Crim. P. 32.2, the terms and conditions of this preliminary order of forfeiture shall be made part of the
sentence imposed against the defendant and recited
in any judgment and commitment order entered in
the case. In accordance with Rule 32.2(b)(4)(A), at
sentencing-or at any time before sentencing if the

28a
defendant consents-the preliminary order of forfeiture,
including the personal money judgment, will become
final as to the defendant;
(i) This Court shall retain jurisdiction to take such
additional action and enter such further orders as may
be necessary to implement and enforce this preliminary forfeiture order.
/s/ Edmond E. Chang
EDMOND E. CHANG
United States District Court Judge
Dated: February 13, 2018

29a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
————
Case Number: 17 CR 00165
USM Number: 51972-424
————
UNITED STATES OF AMERICA
v.
HENRY POSADA
————
Mr. Andrew R. DeVooght
Defendant’s Attorney
————
AMENDED JUDGMENT IN A CRIMINAL CASE
Date of Original Judgment: _________
(Or Date of Last Amended Judgment)
Reason for Amendment:
 Correction of Sentence on Remand (18 U.S.C.
3742(f)(1) and (2))
 Reduction of Sentence for Changed Circumstances
(Fed. R. Crim. P. 35(b))
 Correction of Sentence by Sentencing Court (Fed.
R. Crim. P. 35(a))
 Correction of Sentence for Clerical Mistake (Fed.
R. Crim. P. 36)
 Modification of Supervision Conditions (18 U.S.C.
§§ 3563(c) or 3583(e))

30a
 Modification of Imposed Term of Imprisonment for
Extraordinary and Compelling Reasons (18 U.S.C.
§ 3582(c)(1))
 Modification of Imposed Term of Imprisonment
for Retroactive Amendment(s) to the Sentencing
Guidelines (18 U.S.C. § 3582(c)(2))
 Direct Motion to District Court Pursuant
 28 U.S.C. § 2255 or  18 U.S.C. § 3559(c)(7)
 Modification of Restitution Order (18 U.S.C. § 3664)
THE DEFENDANT:
 pleaded guilty to count(s)
 pleaded nolo contendere to count(s) ____ which was
accepted by the court.
 was found guilty on count(s) 1-18 after a plea of not
guilty.
The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

Offense
Ended

Count

18 U.S.C.
§ 1347

Health care
fraud

12/2006

1-18

The defendant is sentenced as provided in pages
____ through ____ of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of
1984. Other than the amendments or modifications
stated in this judgment, the judgment previously
entered shall stand. (See attachments)

31a
 The defendant has been found not guilty on
count(s)
 Count(s) ____ dismissed on the motion of the
United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.
February 23, 2018
Date of Imposition of
Judgment
/s/ Edmond E. Chang
Signature of Judge
Edmond E. Chang – United
States District Court Judge
Name and Title of Judge
Date March 13, 2018

32a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.

Totals

Assessment Fine

*Restitution

$1,800.00

$4,087,735.00(*)

$

 The determination of restitution is deferred until
____. An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determination.
 The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each payee
shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or
percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must
be paid before the United States is paid.



Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23,
1996.

33a
Name of Payee Total
Restitution
Loss*
Ordered
Blue Cross/Blue
$2,256,651.00
Shield
Cigna

$2,267.00

Medicare

$1,828,817.00

Totals:

$4,087,735.00 (*)

Priority or
Percentage

 Restitution amount ordered pursuant to plea
agreement $ ____
 The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution
or fine is paid in full before the fifteenth day after
the date of the judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on Sheet 6
may be subject to penalties for delinquency and
default, pursuant to 18 U.S.C. § 3612(g).
 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
 the interest requirement is waived for the ____.
 the interest requirement for the ____ is
modified as follows:
 The defendant’s non-exempt assets, if any, are
subject to immediate execution to satisfy any
outstanding restitution or fine obligations.

34a
SCHEDULE OF PAYMENTS*
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
*A  Lump sum payment of $4,089,535.00 (*) due
immediately.
 balance due not later than ____, or
 balance due in accordance with  C,  D,
 E, or  F below; or
B  Payment to begin immediately (may be combined with ❑ C, ❑ D, or ❑ F below); or
C  Payment in equal ____ (e.g. weekly, monthly,
quarterly) installments of $ ____ over a period
of ____ (e.g., months or years), to commence
____ (e.g., 30 or 60 days) after the date of this
judgment; or
D  Payment in equal ____ (e.g. weekly, monthly,
quarterly) installments of $____ over a period
of ____ (e.g., months or years), to commence
____ (e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or
E  Payment during the term of supervised release
will commence within ____ (e.g., 30 or 60 days)
after release from imprisonment. The court will
set the payment plan based on an assessment of
the defendant’s ability to pay at that time; or
F  Special instructions regarding the payment of
criminal monetary penalties:
The financial obligations are due immediately
from any non-exempt assets. Otherwise, during
imprisonment, Defendant shall make payments
through the BOP’s Inmate Financial Respon-

35a
sibility Program if he decides to participate
in the Program. Any balance remaining upon
release shall be paid while on supervised
release in an amount that is equal to 10% of
Defendant’s net monthly income.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during imprisonment. All criminal monetary penalties, except those
payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
 Joint and Several
Case Number
Total
Defendant
Amount
and
Co-Defendant
Names
(including
defendant
number)

Joint and
Several
Amount

Corresponding
Payee,
if Appropriate

 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court cost(s):
 The defendant shall forfeit the defendant’s interest
in the following property to the United States: SEE
ATTACHED ORDER.

36a
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including
cost of prosecution and court costs.

37a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
No. 17 CR 165
————
UNITED STATES OF AMERICA
v.
HENRY POSADA
————
Honorable Edmond E. Chang
————
PRELIMINARY ORDER OF FORFEITURE
The United States asks this Court to issue a
preliminary order of forfeiture pursuant to Title 18,
United States Code, Section 982 and Fed. R. Crim. P.
32.2.
(a) On March 16, 2017, an indictment was returned
charging defendant HENRY POSADA with eighteen
counts of health care fraud in violation of Title 18,
United State Code, Section 1347. The indictment
sought forfeiture to the United States of any property
constituting and derived from gross proceeds traceable
to the commission of the charged offenses, obtained,
directly or indirectly, as a result of such violations,
including but not limited to the following:
1. a personal money judgment in the amount of
approximately $5,182,988;
2. $850,000 in cashier’s checks; and

38a
3. a 2013 Lexus LX 570, VIN: JTJHY7AX5D41013981;
(b) Beginning on October 23, 2017, a jury trial was
held before this Court;
(c) On October 27, 2017, the jury returned a verdict
of guilty against defendant HENRY POSADA as to all
eighteen counts of the indictment, thereby making the
property named in the indictment subject to forfeiture
pursuant to 18 U.S.C. § 982(a) which states in part:
982(a)(7) The court, in imposing sentence on a
person convicted of a Federal health
care offense, shall order the person to
forfeit property, real or personal, that
constitutes or is derived, directly or
indirectly, from gross proceeds traceable
to the commission of the offense;
(d) The United States requests that this Court enter
a preliminary order of forfeiture against defendant
HENRY POSADA as to a personal money judgment in
the loss amount calculated by the government to be
$4,087,736 and the subject Lexus, as property constituting and derived from proceeds obtained from the
Federal health care fraud offenses of conviction;
(e) Accordingly, this Court orders that a personal
money judgment be entered against the defendant for
$4,087,736, and a preliminary order of forfeiture be
entered against defendant HENRY POSADA as to a
personal money judgment in the amount of $4,087,736
and the subject Lexus. If by an act or omission on
his part funds in the amount of $4,087,736 cannot
be located to satisfy the judgment, then pursuant to
21 U.S.C. § 853(p), as incorporated by 18 U.S.C.
1

The forfeiture allegations of the indictment mistakenly list
the VIN as JTHY7AX5D4101

39a
§ 982(b)(1), the United States shall be authorized to
forfeit substitute assets of the defendant. Pursuant to
18 U.S.C. § 982(a)(7) and Fed. R. Crim. P. 32.2, all
right, title, and interest of the defendant in the foregoing property named in this order shall be forfeited to
the United States for disposition according to law.
Should further assets become available to satisfy the
judgment in the future, the United States shall file a
motion requesting permission to seize such assets and
publish notice of the intent of the United States to
forfeit them in satisfaction of the personal money
judgment;
(f) Pursuant to 21 U.S.C. § 853, as incorporated by
18 U.S.C. § 982(b)(1), and Subdivision (b)(3) of Rule
32.2 of the Federal Rules of Criminal Procedure, upon
entry of this Preliminary Order of Forfeiture, this
Court hereby authorizes the Attorney General or his
designated representatives to conduct discovery to
identify or locate property subject to forfeiture, including substitute assets, and to seize property ordered
forfeited upon such terms and conditions as set forth
by this Court;
(g) Pursuant to 21 U.S.C. § 853(g), as incorporated
by 18 U.S.C. § 982(b)(1), and Fed. R. Crim. P. 32.2, the
foregoing property shall upon entry of this preliminary
order of forfeiture be seized by the United States
Marshals Service, Federal Bureau of Investigation, or
other authorized law enforcement agency;
(h) Pursuant to 18 U.S.C. § 982(a)(7) and Fed. R.
Crim. P. 32.2, the terms and conditions of this preliminary order of forfeiture shall be made part of the
sentence imposed against the defendant and recited
in any judgment and commitment order entered in
the case. In accordance with Rule 32.2(b)(4)(A), at
sentencing-or at any time before sentencing if the

40a
defendant consents-the preliminary order of forfeiture,
including the personal money judgment, will become
final as to the defendant;
(i) This Court shall retain jurisdiction to take such
additional action and enter such further orders as may
be necessary to implement and enforce this preliminary forfeiture order.
/s/ Edmond E. Chang
EDMOND E. CHANG
United States District Court Judge
Dated: February 13, 2018

41a
APPENDIX D
[1] UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
No. 17 CR 00165
————
UNITED STATES OF AMERICA,
Plaintiff,
vs.
HENRY POSADA,
Defendant.
————
Chicago, Illinois
February 13, 2018
1:00 o’clock p.m.
————
TRANSCRIPT OF PROCEEDINGS - SENTENCING
BEFORE THE HONORABLE JUDGE
EDMOND E. CHANG
APPEARANCES:
For the Plaintiff:
UNITED STATES ATTORNEY’S OFFICE
MS. NATHALINA A. HUDSON
219 South Dearborn Street
Chicago, Illinois 60604
312-353-5300
nathalina.hudson@usdoj.gov

42a
For the Defendant:
LOEB & LOEB LLP
MR. ANDREW R. DEVOOGHT
MS. EMILY H. STONE
321 North Clark Street
Chicago, Illinois 60654
312-464-3100
adevooght@loeb.com
estone@loeb.com
* * *
[14] him for a long period of time, I think that gets us
under the 3.5 million. And that the lack of documentation should not be held against him for the loss amount
purposes.
So, therefore, as we stated, we think it is at least
under the 3.5. And then, of course, my client’s position
is that a logical extension would be under the 1.5
million.
THE COURT: All right. Thank you.
The standard, of course, is has the government
shown the loss amount by a preponderance of the evidence and what is required as a reasonable estimate
of the loss.
And, as I said before, the specific dispute really is
about the credit for the number of patients per day,
because no one disputes the $600,000 plus credit for
Associated Back Care, Enrique Posada, and Spine
Clinics of America. No one disputes reducing the loss
amount for actual services rendered by Dr. Tiu and
Dr. Latane, for which they actually had their own
documentation. And there was some little credit for
CIGNA as well.

43a
On balance, I do believe that the government’s
calculation is a reasonable estimate, and I draw that
from a number of sources:
First, Mr. Tiu testified that he saw about 8 to 14
patients per day, per workday, when he worked. And
then Mr. Latane, his actual bills show between 6
patients and 10 patients.
[15] So if we were to credit Dr. Posada with more
than 20 patients per day, then we are coming close to
doubling what, for example, the maximum number of
patients that Latane saw per day.
And then we did have trial testimony from patients,
including Ms. Nunn and Ms. Turnage, who I believe
the defense presented both of those witnesses, that
their treatments were like in the 15- to 20-minute
range.
So if you have 20 minutes per patient in terms of
their treatment, and 6- to 7-hour workdays, that is 18
to 21 patients per day. Now that is if the number of
workdays per week is three days per week, which I
think everyone agreed on. And then using the spinal
manipulations code, which again everyone agreed on,
makes the most sense for credit.
Now, I appreciate the defendant’s argument, as is
always well-argued by Mr. DeVooght, but on the
surveillance evidence, which was two days’ worth of
surveillance for the 25 and 26 patients, yes, I
understand the 302 labeled it – labeled the individuals
as patients, but even that doesn’t quite make sense.
Because if, for example, on the day that there was
two hours and 15 minutes, the FBI saw 25 – or is it 26,
26 patients on that day, I think that was the 26 patient
day, that would mean that they were getting treat-

44a
ments that lasted 5.2 minutes, if you do the math. And
that is if each patient [16] was lined up perfectly
outside of the exam room to start the treatment, or
Dr. Posada was moving instantaneously from room to
room and giving treatment in that time block. And
that is not – that doesn’t square with the patients’
testimony of treatments between 15 and 20 minutes.
And even on the next day when there was four
hours’ worth of surveillance and 25 patients, that
works out to about 9.6 minutes per patient. And,
again, it doesn’t square with the 15- to 20-minute
treatment time.
So there is reason to question whether all 25 or 26
individuals who went in during that time period were
actually patients who were receiving treatment.
And really, even if they all were patients, that is a
sample size of a couple of days, and it doesn’t overcome
all the other evidence that supports 20 patients as
being a generous estimate, such as the number of
patients that Tiu and Latane say they themselves saw.
And the other characterizations of the testimony
from the defense witnesses, they are basically a lot of
adjectives without a lot of concrete facts; you know,
that he was very busy and that there was standing
room only. It is difficult to square again with the
amount of time it takes to treat these individuals for
spinal manipulations.
The defendant also argued that – in the written
filings that Latane and Tiu said that Dr. Posada was
also [17] busy, like when they went to the clinic they
would also see Dr. Posada providing services. Even
there, Latane and Tiu represent a fraction of the
number of days that Dr. Posada, you know, was there.

45a
So I think Latane billed for 72 actual dates. Tiu
billed for 42 actual dates. So that is 114 dates out of 8
years.
So about 96 months, times four weeks, times three
days per week, and you are talking about well over a
thousand at that point.
So even their testimony, if you just accept it
completely – and it is still, again, hard to tease out,
what does it mean to say that the defendant was very
busy, would still represent a fraction of the time period
of the fraud.
So I do think 20 is a reasonable estimate. And I say
this – probably the most important point as to why this
estimate is reasonable is that it is a lack of actual
patient records that has put us and put the defendant
in this situation.
He, of course, was required by both private contract
and Medicare regulations to keep these records, and
he did not. And that is one way to, you know, obfuscate
the fraud. Because if he kept meticulous records, we
would know exactly, not just to a preponderance but to
a certainty, what the fraud [18] comprises.
So really, to reward him for the absence of records,
I think, is an unreasonable approach to determine a
reasonable estimate.
It might be a different case if there weren’t so many
thousands of false billings. You can imagine a case if
there was some modest overbilling and then hundreds
of thousands of dollars, let’s say, and a modest amount
of records missing, it would be – I think I would
require more from the government in terms of
precision.

46a
That is not this case where he billed for patients who
were out of town, who were deceased, sometimes
hundreds of patients per day. He is still billing for Dr.
Tiu when he is not even providing services anymore.
It was extensive.
So I do find that the government’s loss calculation is
premised on a reasonable estimate. And so the loss
amount is $4,087.736.
Now, that works out, under the guidelines – and I
will put it on the record.
The base offense level is 6, and these components
were agreed to. That is an 18 level increase, now that
the dispute has been resolved. And then 2 levels for
abuse of trust, which the defendant did not dispute.
So the total offense level is 26.
And his criminal history category is 1.
[19] That works out to an advisory range of 63 to 78
months.
All right. Unless you have a different agenda, I will
hear 3553(a) arguments from the government first,
and then the defendant’s counsel. We will then discuss
the supervised release conditions. And then we will do
the defendant’s allocution.
Was there anyone that the defendant was going to
present for mitigation?
MR. DEVOOGHT: Yes, Judge, one witness. It’s
Pastor Ron, and he was here at trial.
THE COURT: Okay.
MR. DEVOOGHT: He is on his way, Judge. He had
an appointment, so I know he’s going to be here soon.
I apologize that he won’t be here sooner, but I hope

47a
Your Honor will indulge us so that we can work him in
as soon as he gets here.
THE COURT: Do you have an estimate of when he
might arrive?
MR. DEVOOGHT: He said between 1:30, 1:45.
THE COURT: That should work out.
I don’t know how long Ms. Hudson’s presentation is,
but you can have a seat, if you like.
MR. DEVOOGHT: Thank you.
MS. STONE: Thank you.
* * *
[56] one-time offense, like if you sent off a batch of
fraudulent bills, and then you stopped, and you
realized, this is wrong, I can’t do this anymore. But
that is not sadly what happened. You forged on for
many years.
In mitigation, of course, I will also take into account
the extent that you are going to be separated from your
family, and from your community. As Pastor Schultz
spoke on your behalf, you are an important part of that
community, and I take that into account.
It is the worst part of any sentencing for both the
defendant and his family that you will be separated,
you know, from them.
You have your wife, you have two teenage
daughters, and one is still at home. You have an
elderly mother and a brother who, at least at the time
of the writing of the PSR, or the interview for the presentence report, didn’t even know about this situation.
And maybe they still don’t know about it. And it will

48a
be obviously a sad day when they learn of your
imprisonment.
But it has to be said, and it is said probably at every
sentencing, that you did put yourself in this position,
and it is said at every sentencing because it is true.
Unfortunately, your family didn’t cause this. You did.
You did help a lot of patients, and we heard from
them, some of them who were the vehicle for the fraud.
Still [57] you helped them. There isn’t any doubt about
that. And I do take that into account. So you did
contribute to society.
I will say that many white collar defendants do
contribute to society, and I am certainly not punishing
you for putting them in any kind of danger. All right?
We did not hear any testimony or record evidence
about the absence of records leading to danger. If that
were the case, your sentence would be much, much
higher than what I will impose. And those kinds of
health care frauds are in a different level all together
when patients’ safety is at risk. That is not this case.
Your medical condition. Now, I appreciate your
medical condition. I don’t doubt it. I think that was
proven. You did not obviously go to the emergency
room just to have some kind of medical defense later
on.
There are defendants, many defendants in Federal
Court, who have chronic illnesses and where I don’t
doubt their illness at all. I am not sure that it is really
as unique as Mr. DeVooght argued, but in any event,
no matter what, of course, it is mitigating that you
suffer from these problems. And the reason for that is
just that I recognize that prison will be harder for you
than someone without Liddle syndrome, who is not

49a
suffering from low potassium and the effects that that
causes.
[58] But that condition, and the other conditions you
had, they did not cause the fraud.
Dr. Harding’s testimony about Liddle syndrome, I
don’t find it persuasive, that that syndrome caused
memory problems or confusion to such an extreme that
you would then submit the thousands and thousands
of fraudulent bills that you did. And it most certainly
did not cause you to create fake patient records when
the audit came knocking.
I am not faulting, of course, Dr. Harding for, like,
not testifying about whether it caused you to have
intent to defraud, because, of course, at trial the Rules
of Evidence prevent that direct connection, but I am
considering her underlying testimony about Liddle
syndrome, and it would not cause this fraud.
You did still work and you functioned in your
everyday life, both personal and work. It did, of course,
cause you to withdraw.
I think we heard persuasive evidence about how you
changed over time, in terms of your personality, and
your interaction with your family and the community.
But the evidence does not support – it really doesn’t
come close, to supporting that it caused the fraud.
Again, it will make prison harder for you, so I will
consider that.
Your mental health. Now, that, too, is going to make
[59] prison harder, the fact that you suffer from major
depressive disorder. So I will take that into account as
well.
And I can’t make the choice for you, at least at this
point, on supervised release I can, but I can’t make the

50a
choice for you now as to whether you take medications
or not. But they may very well be worth trying,
because you are going to find yourself in a different
setting all together when you are in the Bureau of
Prisons.
With regard to the medical conditions and the
mental health condition, though, there is no record
evidence that the BOP is somehow not going to be up
to the task. They have a statutory and constitutional
obligation to provide for inmate medical needs, and
there is just no evidence that they are going to be
unable to do that.
So, ultimately, I do have to take into account, you
know, all of the goals of sentencing, and I don’t think
specific deterrence is an issue, even though you have
not accepted responsibility. Most of the time when
someone goes to trial and they don’t accept
responsibility, judges are concerned that they have not
learned their lesson, and so they are a recidivism risk.
I actually don’t think you are one, again, despite the
fact that you just disclaimed right here that you did
not commit a crime, because you frankly are not going
to be in a position to commit one, that is, number one,
at least not this [60] kind of crime; and then number
two, you know the risks are enormous, because
whatever sentence I give you now, if you were to
commit some other crime, the next Judge down the
line will think, that is the bottom, that is the least that
this person should get because he has committed
another crime.
You are way too smart to commit another crime, and
so I don’t think specific deterrence is an issue.
General deterrence is, and this is cold comfort for
you, because it has less to do with you as distinct from

51a
the community at large, and physicians. The health
care industry, as I said, is replete with fraud.
The Seventh Circuit again, just last month, repeated the idea, which I think is a valid one, that fraud
defendants generally do consider the risks and benefits of committing a crime. Not with mathematical
precision. No one is saying that a white collar fraud
defendant, or a white collar executive, or physician, is
going to sit down and like try to map it out with
mathematical precision, but they do weigh the costs
and benefits, at least in a general sense.
Prison is – it is truly different from public embarrassment and losing your license. Those are the types
of things that arise from administrative agency action,
and that can – that is the agency that says, you
don’t have a license anymore, it can cause public
embarrassment.
What the criminal justice system delivers on top of
* * *

52a
APPENDIX E
[1] UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
No. 17 CR 00165
————
UNITED STATES OF AMERICA,
Plaintiff,
vs.
HENRY POSADA,
Defendant.
————
Chicago, Illinois
October 26, 2017
9:00 o’clock a.m.
————
***EXCERPT OF TRIAL TRANSCRIPT***
DAY 4 - A.M. SESSION
BEFORE THE HONORABLE JUDGE
EDMOND E. CHANG
APPEARANCES:
For the Plaintiff:
UNITED STATES ATTORNEY’S OFFICE
MS. NATHALINA A. HUDSON
MR. STEPHEN C. LEE
219 South Dearborn Street
Chicago, Illinois 60604
312-353-5300
nathalina.hudson@usdoj.gov
stephen.lee@usdoj.gov

53a
For the Defendant:
LOEB & LOEB LLP
MR. ANDREW R. DEVOOGHT
MS. EMILY H. STONE
321 North Clark Street
Chicago, Illinois 60654
312-464-3100
adevooght@loeb.com
estone@loeb.com
* * *
[6] Q. Is that okay?
A. Okay.
Q. All right.
Can you state your name, please, for the jury? Just
tell them your name.
A. Oh. My name is Mollie Turnage.
Q. And do you know Henry Posada?
A. Yes.
Q. How do you know him?
A. I went to his clinic for a while.
Q. Do you remember about how long you went to his
clinic?
A. I went like maybe three years.
Q. And what types of treatments did –
A. Well, when I went, he gave me the electric
treatment for my knees, or if my shoulders was
hurting, he’d do that, and then I go in back and do
physical exercise. He’d take us back there and show us
what machines to use.

54a
Q. Sure.
And did you ever see anyone else at his office, any
other medical providers, physical therapists, anyone
like that?
A. Yes. We had another therapist to come in and
check different things that he was doing and give their
concern on it, too.
Q. When you went to Dr. Posada’s office, did you see
other [7] patients there?
A. Yes, a lot of patients. He had quite a few patients.
Q. Did you ever refer any other people to Dr.
Posada? Did you ever tell any other people about him?
A. Yes, yes, because I liked his work.
Q. And why did you stop going to see Dr. Posada?
A. Well, I stopped going – my knees got better, and
then he did inform me that my bones was like bone on
bone, and that I should think about surgery, but I told
him no, I was going to still come to him. But then my
husband got sick, and so then I had to stop going.
Q. So you stopped seeing him because you were
taking care of your ill husband?
A. Yes.
Q. While you were a patient of Dr. Posada’s, did
anything ever happen that made you concerned about
Dr. Posada’s health?
A. Yes.
One morning – well, it is – we have a little family,
and we end up – we get there early. And we got there
early, and the door wasn’t open. So then we tried to
call around and see.

55a
And then Irene, she – she contact his wife, and the
next thing we know, the ambulance was there. And he
was there, but he couldn’t open the door for us.
Q. And when you say Irene, who are you referring
to? Who is
* * *
[9] How are you?
Q. Now, you said that you went to Dr. Posada’s
clinic.
When did you start going? Exactly what year?
A. You know, I really don’t know.
Q. Okay.
When was the last time you went?
A. About in 2000 – I think the last time I went was
in 2012.
Q. So before that, you were going to Dr. Posada’s
house –
Dr. Posada’s clinic for three years prior to that?
A. Right.
Q. So 2009?
A. Uh-huh.
Q. Okay.
And the incident with the ambulance, did that occur
during the last year? Did that occur – when the
ambulance was called to Dr. Posada’s clinic –
A. Yes.
Q. (Continuing) – did that occur in 2012, or was it
sort of 2011?

56a
A. It was maybe the end of 2011.
Q. Okay. All right.
And Ms. Turnage, how often would you go to see Dr.
Posada?
A. Twice a week.
[10] Q. And how long would your appointments with
him be?
A. Be like – well, the treatment part would be like
15 to 20 minutes, and then we would go in the back
and do the other therapy part.
We could stay as long as we want to.
Q. Okay.
A. Uh-huh.
Q. And were there times when you would go to the
clinic and Dr. Posada had missed his appointment
with you or anything like that?
A. Had he did what?
Q. Did he ever miss an appointment with you?
A. No.
Q. And when you – in 2012, when you would
interact with Dr. Posada, when you would go there, go
to the clinic, did you understand what he was telling
you when you would meet with him?
A. Did I know –
Q. Did you understand what he was telling you
during the treatment?
A. Yes, yes.
Q. Okay.

57a
A. All right.
MS. HUDSON: Can I have a minute, Your Honor?
THE COURT: Yes.
* * *
[12] - - IRENE SAMUELS,
called as a witness by the defendant, was examined
and testified as follows:
DIRECT EXAMINATION
BY MS. STONE:
Q. Good morning, Ms. Samuels.
A. Good morning.
Q. Please state your name for the Ladies and
Gentlemen of the Jury.
A. Irene Samuels.
Q. And do you know Henry Posada?
A. Yes, I know Dr. Posada.
Q. How do you know him?
A. Well, I was – okay.
I used to – I was under Dr. Julie before she sold to
him, and she told me he was a good doctor, and so I
just stayed.
Q. And so you were a patient of the – of that
previous owner that –
A. She previously owned the clinic, and so I stayed
on with Dr. Posada.
Q. How long about were you his patient?

58a
A. I would say about four, five years, somewhere in
there. [13] I am – you know, I am getting old, Your
Honor.
Q. Okay.
How often would you see him?
A. I would go on Monday, Wednesday, and Friday.
Q. And why did you go see him? What was
bothering you?
A. My back.
Q. Okay.
A. And then sometimes in my shoulder area.
Q. What types of treatments would he give you?
What would he do for you?
A. He would put on a machine attached to my back,
and I said, how about a little lower, and I laid there,
relaxed and feel the penetration going down my back.
Q. And –
A. Really felt good and helpful.
Q. And did he ever do anything with his hands?
A. Yes, he would massage it and what’s called
adjust your back.
Q. What about any exercises or physical therapy?
A. I do my exercise on the ball, and then I do the one
with the – where you lift your legs and stuff up.
Q. Did you see any other medical providers when
you went to Dr. Posada’s office? Any physical therapists or anything like that?
A. There was physical therapy there.

59a
[14] Q. Okay.
A. Yes.
Q. Why did you stop going to Dr. Posada?
A. I kind of laid back from going when my mother –
she had dementia and it developed to Alzheimer’s, and
I had to take care of my momma, because – you know,
she got really down.
And so we had to, you know, lift her and – and when
I get through doing all that, I’d be tired so I would go
home and do my exercise, put my ice packs on my back.
So then when I couldn’t take it no more, I would call
and say doctor, I can’t help it, I got to have my
treatment.
Q. When you went to see Dr. Posada at his office,
were there other patients there?
A. Yes.
Q. Okay.
A. Yes, yes.
There was other patients there.
Q. Okay.
A. That is how we met a lot of them and came to be
family.
Q. You said –
A. Other patients there.
Q. You said that there were –
A. There was a lot of patients was there. There were
other patients there.
* * *

60a
[18] us how to do all the exercise. And I remember a
lot of my exercise from Dr. Julie. When I was back
there, they said, keep up the good work, I said, I got to
get better so I can help my mother.
Q. And how often did you –
Well, when you went to the practice, how often did
you see Dr. Posada?
A. I was going on Monday, Wednesday, and Friday,
and sometimes I change and go Wednesday and
Friday.
Q. So about two or three times a week?
A. Yes.
Q. Now, what about the physical therapist? How
often did you see the physical therapist at the practice?
A. Sometimes I might see him once a week,
sometimes twice a week, I’d go there.
Because I usually go in the morning time.
Q. Now –
A. Sometimes I might go in the evening time if I
can’t get – if I missed that morning.
Q. All right.
Now, Ms. Samuels, when you went to see Dr.
Posada, did you have health insurance?
A. Yes.
Q. What did you have?
A. I had Medicare and Blue Cross Blue Shield.
* * *
[24] A. I am his patient.

61a
Q. Okay.
A. I was his patient.
Q. And why did you go to see Dr. Posada?
A. Severe back pain.
Q. And what type of treatments did he provide to
you?
A. He had a machine he would put on my back for a
certain amount of time. And he would also do
manipulations with his hands. And then adjustments.
Q. And about how long were you a patient of Dr.
Posada? Do you know about how many years?
A. I think about a year and a half, maybe.
Q. And how often would you go to see him?
A. Two to three times a week.
Q. And when you would go there, would you see
other patients in the clinic?
A. Always.
Q. Did you ever refer other people to Dr. Posada?
A. Always.
Q. Okay.
A. I kept his business cards and I passed them out.
MS. STONE: Okay.
Your Honor, may I have just one moment?
THE COURT: All right.
(Discussion held off the record.)
[25] MS. STONE: Your Honor, I have no further
questions for the witness.

62a
THE COURT: All right.
Cross-examination?
--VIVAN NUNN
CROSS-EXAMINATION BY MS. HUDSON
BY MS. HUDSON:
Q. Good morning, Ms. Nunn.
A. Good morning.
Q. Ms. Nunn, what type of insurance did you have
when you were seeing Dr. Posada?
A. Medicaid and – yes.
Q. Okay.
A. Medicaid at the time.
Q. Okay.
A. No.
Medicare. Medicare.
Q. All right.
When you would go to see Dr. Posada, how long
typically were the treatments?
A. Hmm, about – I think, about 20 minutes.
Q. And when you would go to see Dr. Posada,
were there times when he didn’t show up for your
appointments?
* * *

63a
APPENDIX F
[1] UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
No. 17 CR 00165
————
UNITED STATES OF AMERICA,
Plaintiff,
vs.
HENRY POSADA,
Defendant.
————
Chicago, Illinois
October 25, 2017
12:45 o’clock p.m.
————
***EXCERPT OF TRIAL TRANSCRIPT***
DAY 3 - P.M. SESSION
BEFORE THE HONORABLE JUDGE
EDMOND E. CHANG
APPEARANCES:
For the Plaintiff:
UNITED STATES ATTORNEY’S OFFICE
MS. NATHALINA A. HUDSON
MR. STEPHEN C. LEE
219 South Dearborn Street
Chicago, Illinois 60604
312-353-5300
nathalina.hudson@usdoj.gov
stephen.lee@usdoj.gov

64a
For the Defendant:
LOEB & LOEB LLP
MR. ANDREW R. DEVOOGHT
MS. EMILY H. STONE
321 North Clark Street
Chicago, Illinois 60654
312-464-3100
adevooght@loeb.com
estone@loeb.com
* * *
[110] A. Yes, I do.
Q. How do you know him?
A. He was my doctor.
Q. And when was he your doctor? About how long
ago?
A. About a year ago.
Q. And how long – let me clarify my question.
Do you remember about when you started seeing Dr.
Posada?
A. Well, I don’t remember the exact date, but it is –
I was – he was my doctor for two or more years.
Q. Okay.
And do you know other people who were patients of
his?
A. Yes, I do.
Q. Who was that?
A. I can’t recall their names, but it was quite a few
people.
Q. What about your wife?

65a
A. Yes, my wife.
Q. Okay.
A. Yes, my wife was there.
Q. And you said you knew quite a lot of people that
were also his patients?
A. Yes, it was standing room only.
Q. When you say it was standing room only, are you
[111] referring to –
A. Patients.
Q. (Continuing) – to patients at his clinic?
A. At the clinic. At the –
Q. Okay.
A. At the clinic.
Q. Okay.
Why did you go to see Dr. Posada?
A. For the lower part of my back. I was having a
problem with the lower part of my back.
Q. What type of treatments did Dr. Posada provide?
Did he use his hands? Did he use machines? What kind
of things did he do for you?
A. Machines and his hand.
Q. All right.
Now, did you ever refer anyone you knew to Dr.
Posada?
A. Well, I told quite a few people that I knew about,
you know, how good he was. But me and my wife, yes.
And I was telling them to go check him out.
Q. Okay.

66a
Now, was there a point in time where you stopped
going to see Dr. Posada?
A. Yes, there was.
Q. And why did you stop seeing him?
* * *
[113] CROSS EXAMINATION
BY MS. HUDSON:
Q. Mr. Hampton, you said that last time you saw
Dr. Posada was last year?
A. I think that it was about a year ago since we left
him, yes.
Q. How often would you go to see Dr. Posada?
A. Twice a week.
Q. Twice a week?
A. Yes.
Q. Okay.
And when you would go, were there ever times that
you would go to the clinic and he wasn’t there?
A. Never.
Q. Okay.
He never missed an appointment?
A. Did I miss an appointment?
Q. He never missed an appointment with you?
A. Well, no.
MS. HUDSON: Okay.
Thank you.

67a
THE COURT: All right.
Is there anything else?
MS. STONE: No, Your Honor.
THE COURT: All right.
* * *

68a
APPENDIX G
[1] UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
No. 17 CR 00165
————
UNITED STATES OF AMERICA,
Plaintiff,
vs.
HENRY POSADA,
Defendant.
————
Chicago, Illinois
October 24, 2017
8:45 o’clock a.m.
————
***EXCERPT OF TRIAL TRANSCRIPT***
DAY 2 - A.M. SESSION
BEFORE THE HONORABLE JUDGE
EDMOND E. CHANG
APPEARANCES:
For the Plaintiff:
UNITED STATES ATTORNEY’S OFFICE
MS. NATHALINA A. HUDSON
MR. STEPHEN C. LEE
219 South Dearborn Street
Chicago, Illinois 60604
312-353-5300
nathalina.hudson@usdoj.gov
stephen.lee@usdoj.gov

69a
For the Defendant:
LOEB & LOEB LLP
MR. ANDREW R. DEVOOGHT
MS. EMILY H. STONE
321 North Clark Street
Chicago, Illinois 60654
312-464-3100
adevooght@loeb.com
estone@loeb.com
* * *
[20] Q. Okay.
A. And that is the ICD-9 code next to it.
Q. All right.
I want to direct your attention to the bottom of this
page.
A. Yes.
Q. At the bottom it says, “intervention in minutes,”
and then there –
What does that mean?
A. So this is the part that I mentioned earlier where
we check and write off – say, if the patient came again,
say, on the second visit, and I provided, say, 15
minutes of exercise, I would write 1 next to exercise,
because that means 1 unit is 15 minutes.
So, in this case, this is an initial session, and what I
wrote was 97001, since it was not in the list, and 97001
just means an initial physical therapy assessment.
Q. And then underneath 97001, there is an X and
a 2.
What does that mean?

70a
A. That means 2 units. That means I spent, you
know, 30 minutes to do that assessment.
Q. And then at the bottom it looks like there is a
signature there.
Whose signature is that?
A. That is mine.
* * *
[39] Q. And when you went to the practice, what
location are you talking about?
A. Just south of Midway Airport on 63rd Street,
corner of Kostner and 63rd, I believe.
Q. Was that the only location you went to, or did you
go somewhere else?
A. That would be the only location.
Q. Okay.
Now, just to be clear, when you were working for the
defendant, were you working full time or was it on a
part-time basis?
A. Oh, part time.
Q. What were you doing on a full-time basis?
A. Working either in a subacute rehab setting, or I
did work for a different company in home health full
time for part of that.
Q. So when you went to the defendant’s practice –
First of all, when you went there, how did you get
into the practice? Did you have a key?
A. No.
The clinic would be open, and I would just walk in
through the front door.

71a
Q. When you went to the practice, did you observe
the defendant there?
A. Yes.
[40] Q. And was he always there at some point when
you went there?
A. Yes.
Q. Okay.
Now, when you went to the practice and saw
patients, approximately how many patients did you
see in a typical day at the practice?
A. It would vary anywhere from two to maybe
seven. Probably an average of about four.
Q. And when you went to the practice, what days of
the week did you typically go to the practice?
A. It varied, but it was usually a Monday or
Wednesday. Sometimes on a Sunday there might have
been a few visits. Once or twice maybe on a Friday.
Q. And when you were there at the defendant’s
practice, approximately how many hours were you
there in a typical day?
A. It would depend on the number of patients, but
generally somewhere in the range of three to five hours.
Q. And when you saw patients at the defendant’s
practice, what typically did you do with the patients
that you saw?
A. I would evaluate them for whatever particular
diagnosis they presented with to assess their physical
deficits, impairments, and to try to bring about
correction into that problem.

72a
Q. And approximately how long, on average, did you
spend [41] seeing typical patients at the defendant’s
practice?
A. Anywhere from 30 minutes to an hour.
Q. Now, Mr. Latane, did you keep records of the
services that you provided to patients that you saw at
the defendant’s practice?
A. Yes.
Q. What kind of records did you keep?
A. The records for purposes of billing. And then the
evaluation form itself, with the assessment done on
the patient.
Q. Now, Mr. Latane, why did you track that
information in the records?
A. For billing purposes so that it could accurately
reflect the services rendered and appropriately bill
insurance, the evaluation, to substantiate the service
that was rendered.
Q. All right.
Now, putting aside billing purposes, were there
medical reasons why you kept documentation for the
services that you –
A. Oh, yeah.
So that Dr. Posada would see the course of
treatment that I had outlined and follow in that course
of treatment.
Q. And would you also keep records for your own
benefit if you were to see the patient again?
A. I just kept records for billing purposes. The
evaluation

73a
* * *
[48] A. Hey, Henry, here is the list of the charges for
3-18-2011.
Q. And can you read the next three lines.
A. Dorothy Little, PT eval 97001, 15 minutes,
therex 97110, 30 minutes.
Q. What do those three lines represent?
A. The services billed for Dorothy Little, PT
evaluation in the 97001 code, and the therapeutic
exercise code with the 97110.
Q. Mr. Latane, are you trying to tell the defendant
that you saw a patient by the name of Dorothy little
on March 18, 2011?
A. Yes.
Q. Okay.
And so what are you telling the defendant about the
billing charges for that patient for that day?
A. Would have amounted to 45 minutes between the
eval and the therapeutic exercise.
Q. All right.
Now, Mr. Latane, how many patients are listed in
this email, going from what’s on the left side – lefthand side of the screen and the right-hand side of the
screen, which is the next page?
A. There would be six.
Q. Okay.
Now, why did you send this information to the
* * *
[74] A. Yes.

74a
Q. So you had a certain time of day that you would
go to Mr. Posada’s office, right?
A. Correct.
Q. And that was approximately, as you told Federal
Agents, between 3 and 7 and 3 and 8 p.m.?
A. Correct.
Q. So it wasn’t in the mornings?
A. There might have been a few Fridays where I’ve
been there in a morning, but pretty rare.
Q. But over the course of time that you worked for
him, the average routine –
A. Yes.
Q. And I’m going to slow down.
The average routine was that you would go to Mr.
Posada’s office in the afternoon?
A. Correct.
Q. From approximately 3 to 7 or 3 to 8 p.m.?
A. Right.
Q. And he was always there?
A. Yes.
Q. Okay.
And you talked a little bit with counsel about not
really having the opportunity to interact, you know, on
a consistent basis with Mr. Posada because you were
in different [75] parts of the building, right?
A. Correct.
Q. You were in the rear where there was the gym,
right?

75a
A. Correct.
Q. And he was in the front where there were the
patient rooms, right?
A. Correct.
Q. But you were able to observe that on average
there were – you would see that there were three to
four patients in the patient rooms that he was going in
and out of, right?
A. Yes.
Q. And there might be, on average, one or two
people sitting in the little lobby area waiting?
A. That would not be unusual.
Q. Yes, okay.
And because you had to be there – or, excuse me.
Because Mr. Posada was always there, you had
some instances, as you explained to the Federal
Agents, that you had to schedule your visits around
Mr. Posada’s vacations, right?
A. Yes.
Q. Or you remember specific instances where there
was a conflict in days?
A. Yes.
Q. And you knew he was going on vacation because
he told you [76] as much?
A. Correct.
Q. Okay.
Or he told you he was going to be out of town?
A. Yes.

76a
Q. Okay, right.
Now, you were talking about putting together your
evaluations, and you said you would leave them on his
desk so that he could put them in the file, right?
A. Correct.
Q. We talked about a number of individuals,
patients that you saw, and counsel asked you what you
recalled. And, for example, I will just take one, Ruth
Anderson.
You don’t have any independent recollection of Ruth
Anderson, right?
A. No, I do not.
Q. And certainly –
I mean, that was October of 2011, right?
A. Yes.
Q. So six years ago.
And you don’t recall exactly how many times you
saw her, right?
A. No.
Q. You were just inferring there was one evaluation
in the file?
* * *
[84] Q. And what is your husband’s first name?
A. Pablo.
Q. Now, approximately how often did you and your
husband go to see the defendant at his practice in a
given week?
A. Like three times.

77a
Q. And Ms. Caraballo, how long did you and your
husband go to see the defendant at his practice two or
three times a week?
A. If I –
MR. DEVOOGHT: Objection, your Honor. That
misstates the testimony.
She said three times a week.
THE COURT: Yes.
That is sustained.
BY MR. LEE
Q. Ms. Caraballo, approximately how long did you
go to see the defendant at his practice?
A. We took like six months, seven months, the most.
Q. All right.
And Ms. Caraballo, were you covered by health
insurance at the time that you were going to the
defendant’s practice?
A. Yes.
Q. And what kind of insurance did you have?
A. Blue Cross Blue Shield.
* * *
[102] CROSS EXAMINATION
BY MR. DEVOOGHT:
Q. Good morning.
A. Good morning.
Q. You first started talking with the prosecutor –

78a
Well, you mentioned that you saw Mr. Posada on
TV; is that right?
A. I saw the advertisement on TV.
Q. For Mr. Posada?
A. Mr. Posada.
Q. Okay.
Do you remember before trial meeting with the
government to prepare for your testimony? Right?
A. I didn’t hear you.
Q. Sure.
Do you recall meeting with the government to
prepare for your testimony?
A. I talked to them.
Q. And did you tell them about your interactions
with Mr. Posada?
A. Yes.
Q. Did you tell them that when it was the winter
months, you didn’t feel comfortable coming to the
office? Right?
A. Yes.
Q. And he offered to come provide you assistance at
your [103] house, right?
A. He said he would do some home visits.
Q. But you didn’t feel comfortable with that?
A. No.
Q. And do you remember –
You testified on direct today that you thought you
went for about three months; is that right?

79a
A. Yes, I thought about three.
Q. Do you remember telling the prosecutors that
you thought it was more closer to six?
A. It might have been.
I don’t remember.
MR. DEVOOGHT: Okay. Okay.
Thank you very much for your time.
THE WITNESS: Okay.
THE COURT: Anything else?
MR. LEE: No, Your Honor.
THE COURT: You are excused, Ms. Anderson.
THE WITNESS: All right.
MR. LEE: The government will call Myrna Walker.
THE COURT: All right.
(Discussion held off the record.)
THE COURT: Okay.
We are back on the record and we have our next
witness up on the stand.
* * *
[121] CROSS EXAMINATION
BY MR. DEVOOGHT:
Q. Good morning. Good day.
A. Okay.
Q. Ms. Coleman, when you would go see Mr.
Posada, a man named Loren White would drive you to
see him?
A. Correct.

80a
Q. That is a neighbor of yours?
A. Yes.
Q. And when you went to see Mr. Posada, you would
receive electrostimulation on your back?
A. Right.
Q. And you would receive some – some heat on your
back?
A. Yes.
Q. And then he would also perform what to you felt
like he was cracking your back, correct?
A. Yes.
Q. All right.
Ms. Coleman, at a certain point in time you stopped
going to see Mr. Posada, right?
A. Yes.
Q. And after you stopped seeing Mr. Posada, you
received a phone call from a woman asking you to come
back to the practice, right?
A. Yes.
* * *

81a
APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
Case No.: 1:17−cr−00165
————
UNITED STATES OF AMERICA,
v.

Plaintiff,

HENRY POSADA,
Defendant.
————
Honorable Edmond E. Chang
————
NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on Friday,
October 27, 2017:
MINUTE entry before the Honorable Edmond E.
Chang: Jury trial held: the parties finished presenting
evidence, closing arguments were delivered, and jury
instructions were read. Jury deliberations began. The
jury made two requests handled off the record with the
agreement of the parties: (1) for extra copies of the
indictment, which the parties agreed was permissible;
and (2) for one juror to call home in the presence of
the court security officer, which the parties agreed
was permissible. Jury deliberations ended. Enter jury
verdict of guilty on all counts, that is, Counts 1
through 18 of the indictment. Trial ends. The case is
referred to the Probation Office for preparation of the

82a
presentence report. As required by Local Rule 32.1(e),
the government shall submit its version of the offense
to the Probation Office by 11/13/2017. Defendant must
submit his version by 11/20/2017. The government’s
sentencing memorandum discussing 18 U.S.C. 3553(a)
factors and objections to the presentence report must
be filed (in one combined) on or before 01/09/2017.
The defense’s response is due by 01/23/2017. The
government’s reply is due by 02/02/2017. Sentencing
set for 02/13/27/2017 at 1:00 p.m. After balancing the
factors discussed in United States v. Peterson, 711
F.3d 770, 779 (7th Cir. 2013), the Court has decided to
generally require the Probation Office to provide a
copy of its Sentencing Recommendation to Defendant’s
counsel and to the government’s counsel, and that
requirement applies here. The parties are alerted
that the Court sets aside both substantial in advance
preparation time and substantial in−court time for
sentencing hearings, and in light of the Court’s crowded
trial and sentencing calendar, the dates of sentencing
hearings are firmly set. Any motion to continue a
sentencing must be made in writing, well in advance
of sentencing, and must expressly set forth good cause
for a continuance.Emailed notice (slb,)
ATTENTION: This notice is being sent pursuant to
Rule 77(d) of the Federal Rules of Civil Procedure or
Rule 49(c) of the Federal Rules of Criminal Procedure.
It was generated by CM/ECF, the automated docketing system used to maintain the civil and criminal
dockets of this District. If a minute order or other
document is enclosed, please refer to it for additional
information.
For scheduled events, motion practices, recent
opinions and other information, visit our web site at
www.ilnd.uscourts.gov.

83a
APPENDIX I
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
No. 17 CR 165
————
UNITED STATES OF AMERICA
vs.
HENRY POSADA
————
Judge Edmond E. Chang
————
GOVERNMENT’S SENTENCING MEMORANDUM
The UNITED STATES OF AMERICA, by its
attorney, JOHN R. LAUSCH, United States Attorney
for the Northern District of Illinois, submits the
following sentencing memorandum and requests that
the Court impose a guideline sentence of 63 to 78
months.
I. BACKGROUND
A. The Offense
Defendant Henry Posada was charged in an indictment with eighteen counts of health care fraud in
violation of Title 18, United States Code, Section 1347.
As alleged in the indictment, the defendant submitted
fraudulent claims to insurance companies for services
to patients that he never provided. A jury trial was
held from October 231’d through October 27, 2017. On

84a
October 27, 2017, the jury found the defendant guilty
on all counts.
As shown at trial, defendant falsely billed Medicare
and private insurance companies for services that he
did not provide to patients. Defendant’s scheme started
in 2008 and continued through December 2016. As
part of the scheme, the defendant submitted 1000s
and 1000s of claims to health care benefit programs
that falsely represented that certain health-care
services were provided to patients, when defendant
knew that those services were not actually provided.
It was part of the scheme that the defendant
submitted fraudulent claims to health insurance
companies for physical therapy services rendered by
Latane and Tiu that were never provided to the
patients. It was part of the scheme that the defendant
submitted fraudulent claims to health care benefit
programs for chiropractic services that were not performed approximately a year after the date of the
purported service in order to conceal the fraudulent
nature of the claims from the health care benefit
programs. It was part of the scheme that defendant
submitted claims to health care benefit programs for
services that he purportedly provided to patients in
Illinois while he was outside of Illinois on those dates
of services. It was part of the scheme that the
defendant submitted claims to Medicare for patients
that were actually deceased. It was also part of the
scheme that the defendant created patient records to
cover up the fraudulent billing.
B. Presentence Investigation Report
The November 2016 edition of the U.S. Sentencing
Guidelines Manual applies in this case. The government agrees with the PSR’s Guidelines calculation.

85a
The base offense level is 6, pursuant to Guidelines
§2B1.1(a)(2). The offense level is increased by 18
because the loss amount is 4,087,736, pursuant to
Guideline §2B1.1 (b)(1)((J). The offense level is increased
by 2 because the defendant abused a position of public
or private trust, pursuant to Guideline § 3B1.3. The
adjusted offense level is 26. The defendant does not
have any criminal history points, so the defendant has
a criminal history category of I. Based on an offense
level of 26, and a Criminal History Category of I, the
applicable Guideline Range is 63 to 78 months.
C. Loss Amount
The government initially calculated the loss as
$5,182,988, which is the number included in the
indictment. This loss figure was based upon a review
of over 800 patient files that were seized from the
defendant’s place of business. The government reviewed
the files and where there was no documentation to
support the services that the defendant billed to the
insurance companies the amount billed was included
in the loss amount. As shown at trial, many of the
defendant’s patient files lack documentation. However,
through the defendant’s patient witnesses, there is
evidence that the defendant treated at least 10 patients
a day. The defendant’s wife testified that the defendant worked at least three days a week. Although there
is very little documentation to support the defendant’s
billing practices, the government is crediting the defendant with seeing at least 20 (10 Medicare patients and
10 Blue Cross Blue Shield patients) patients a day on
average, three times a week. It should be noted that
the defendant’s billing data shows that he billed for
treating over 80 patients a day, which was impossible.
Nevertheless, the government is using an estimate of
20 patients per day, three times a week, and the billing

86a
code 98941 for spinal manipulations during the eightyear fraud period to calculate the loss amount.
It should be noted that in some instances the
government gave the defendant significantly more
credit of seeing more than 20 patients per day. Even if
the defendant was out of town or had other outside
activities, such as doctor appointments and hospital
stays, the government gave the defendant credit for
seeing twenty patients per day. The government also
gave the defendant credit for all of his Blue Cross Blue
Shield submissions when the servicing provider was
either Associated Back Care, Enrique Posada or Spine
Clinics of America. The total amount credited to
Posada was $606,631. When you look at the credited
amount of $606,631, the government gave the
defendant credit for seeing more than 20 patients per
day. See Gov. Ex. A (Spreadsheet).
The spreadsheet shows almost every day the government gave credit to the defendant for seeing more
than 20 (10 Blue Cross Blue Shield patients and 10
Medicare patients) patients per day. The spreadsheet
shows an instance where the government gave credit
to the defendant for seeing over 60 patients per day for
15 dates of service from July 7, 2014 to August 8, 2014.
The government also gave the defendant credit when
he was not in town. For example, the spreadsheet
shows the government gave credit to the defendant
when he was in San Francisco from August 2, 2013
through August 12, 2013. The government credited
the defendant with seeing 59 patients on August 2,
2013, 62 patients on August 5, 2013, 61 patients on
August 7, 2013, 62 patients on August 9, 2013, and 49
patients on August 12, 2013. The government gave the
defendant a credit of over 1.2 million. It should be
noted that Blue Cross Blue Shield and Medicare

87a
require documentation for services provided, and if the
defendant were audited he would not receive credit for
treating patients where there is no documentation.
The government believes that given that the defendant did treat some patients, but had very little
documentation that a conservative loss amount is
$4,087,736.
Total Loss Amount for the Defendant
Total Amount Paid BC/BS + Medicare + Cigna
(1/1/08 – 10/30/15) = $5,300,081
Minus
BC/BS amount paid for procedure 98941 =

$300,4711

Medicare calculation for procedure 98941 =

$299,2552

BC/BS. Total Amount Paid (Excluding
98941) for servicing providers Associated
Back Care, Enrique Posada, and Spine
Clinics of America

$606,631
$1,206,357

Minus
Medical Record Review for Tiu’s BC/BS
and Medicare Serv.
Medical Record Review for
BC/BS and Medicare Serv.

$1,2143

Latane’s
$4,459
$5,673

1

See Gov. Ex. B (BC/BS loss amount)

2

See Gov. Ex. C

3

The government gave the defendant credit for the services
provided by Tiu and Latane that had documentation.

88a
Minus (Cigna) $2,582.77 — Total Amount Paid
Cigna Total Amount Paid Excluding 98941
for servicing providers Associated Back
Care, Henry Posada, and Posada, Henry

$315.00

$5,300,081 – $1,206,357 – S5,673 – $315 = $4,087,736
(Total Loss Amount)
Methodology behind Gov. Ex. A spreadsheet.
(BC/BS Claims Data): Filtered out servicing provider
Associated Back Care, Enrique Posada, and Spine
Clinics of America from the BC/BS data. The total
amount credited to Posada was $606,631. For each
date of service, identify the number of BC/BS patients
that were submitted. This calculation was entered on
the spreadsheet under the column “Number of BC/BS
Patients (Submitted).”
(Medicare Claims Data): Identified if Medicare
services were submitted for each date of service. If a
service or services were submitted on a date of service
the government credited Posada 10 patients. This
calculation was entered on the spreadsheet under the
column “Medicare Allotment.”
For each date of service, “Number of BC/BS Patients
(Submitted)” was added to “Medicare Allotment.” This
calculation was entered under column “Total Number
of Patients Given Credit For.” This column identifies
the number of patients the government gave credit to
Posada for each date of service.
The column titled, “Trip Dates for Posada,” identifies
the airline and dates Posada was out of town.

89a
II. DEFENDANT SHOULD BE SENTENCED TO
A GUIDELINE SENTENCE OF 63 TO 78
MONTHS
A careful consideration of the § 3553(a) factors
weighs in favor of a sentence of at least 63 to 78
months of imprisonment.
A. Nature and Circumstances of the Offense
The offense here is a serious one. Defendant submitted 1000s and 1000s of fraudulent claims to insurance
providers, and thus received payments for services
that he did not provide to the patients. As shown at
trial, the defendant billed insurance companies for
services that he did not provide because he was out of
town. As shown at trial, the defendant billed Medicare
for dead patients. In a world that has limited funds to
pay for health care, insurance providers paid defendant for fraudulent claims that could have been used to
pay for necessary medical services. The costs associated
with defendant’s crime are not, of course, limited to
the insurance companies he defrauded. The cost of the
fraud is ultimately passed on to consumers in the form
of increased costs.
As shown at trial, the defendant’s conduct was
intentional and egregious. He did not submit fraudulent bills by accident or because of his medical issues.
In fact, after reporting concerns to a doctor about
financial worries on March 16, 2009 (Def. Ex. 32), the
Blue Cross Blue Shield data shows an explosion of
backdated claims being submitted. In March and April
2009, the defendant submitted more than 3,000 services to BCBS allegedly for services he had somehow
missed billing in a timely manner, and got paid $58,768.
There were no financial worries from there on out.

90a
As captured in Gov. Ex. 65_Chart A, the defendant
billed Medicare as if he actually treated 100s of
patients a day. As captured in Gov. Ex. 65_Chart A,
the defendant would have to work more than 24 hours
of day to see the volume of patients that he claimed he
treated. Additionally, as shown at trial, Patient S.M.
was confined to a wheelchair, and did not receive
chiropractic services at the defendant’s clinic. However,
the defendant submitted claims for treating Patient
S.M. on 394 different service dates, and there is no
documentation for these claims.
The defendant was simply not asleep at the wheel.
As shown at trial, the defendant billed Blue Cross from
November of 2009 through January of 2012 for services that Tiu allegedly provided. However, Tiu testified
that he stopped working for the defendant in September
of 2009. Furthermore, even though the defendant
argued that his medical condition prevented him from
billing properly, he managed to keep up with Latane’s
billings, and never made a mistake in paying him. For
example, when Latane realized that he made a mistake
in one of the superbills, the defendant told Latane that
he already fixed the mistake. See Gov. Ex. D.
Not only did the defendant bill insurance companies
for services never rendered, he also took steps to cover
up the false billing. For example, after receiving a
request from CMS as part of an audit and learning
that his billing practices were out of the ordinary in
June of 2015, the defendant created fake files and
sent them to CMS. See Gov. Ex. E. As shown at trial,
patient F.C. started going to see the defendant in
October 2011, and she testified that she went to see
Posada for a few months. However, data shows that
Posada treated her from July 2011 through October
2014, even when he was actually away. She was not

91a
seeing Posada in February 2014, more than two years
later. Nevertheless, the defendant submitted a fake
file from February 2014 to support his billing in response
to the CMS request. In response to a subpoena, the
defendant created a fake file for patient C.L. As shown
at trial, the defendant was in Colorado when he was
allegedly providing services to patient C.L. See Gov.
Ex. F. As shown at trial, the defendant received a
request for records for patient P.A. The defendant
created a fake file for patient PA. because he was in
Colorado at the time that he allegedly provided these
services. See Gov. Ex. G.
After billing insurance companies for services that
he never provided, the defendant’s medical issues
did not prevent him from spending the money.
Throughout the fraud scheme, as shown at trial, the
defendant withdrew large sums of money for his own
personal use. See Gov. Ex. 21_Withdrawal Chart.
Although the defendant knew that he was breaking
the law each time he submitted a fraudulent claim,
defendant proceeded with little regard for the consequences to others of his actions. This conduct richly
deserves a sentence of at least 63 to 78 months of
imprisonment.
B. History and Characteristics of Defendant
As shown in the PSR, defendant’s history presents a
picture of someone who had every opportunity to lead
a law abiding life, but squandered his opportunities for
greed. Defendant grew up in a stable home. Unlike
some defendants that come before this Court, this
defendant had a highly profitable practice and a high
standard of living before he began his fraud scheme,
and he could have continued having that practice
and living had he simply billed for his services
honestly. This defendant made a clear choice to begin

92a
defrauding his patients’ insurers and to continue
doing so for years. He chose to do this because he
thought he could get away with it, and a serious
sentence is necessary to punish him adequately.
C. Need to Afford Adequate Deterrence and Protect
the Public from Further Crimes of Defendant
Defendant’s involvement in health care fraud demonstrates a disregard both for the impact fraudulent
billing has on insurance companies and the community at large. Defendant’s conduct demands that the
sentence imposed sufficiently afford both specific and
general deterrence. Despite alleging to have medical
issues that prevented him from billing properly, the
defendant maintains that his medical issues did not
impact his ability to treat large volume of patients. In
fact, the defendant told probation that he saw a 100
patients each day. See PSR at 19. As shown at trial,
this simply is not true, and the defendant has not
accepted responsibility for his conduct on any level. A
Guideline sentence is needed in this case, and would
meet the goal of deterrence.
D. Need to Promote Respect for the Law and
Provide Just Punishment
A Guideline sentence would promote respect for the
law by emphasizing to others the painful consequences
that follow from involvement in health care fraud. By
imposing that requested sentence, the Court would
emphasize that, although fraudulent billing may
provide a steady source of income for people unwilling
to engage in honest work, such behavior is reprehensible and will be punished severely. Such a sentence
would also help to deter others, to some degree, from
making the same poor choices as defendant.

93a
Given the seriousness of this offense, a Guideline
sentence is also appropriate to provide just punishment for defendant.
E. Need to Avoid Unwarranted Sentencing
Disparities
A sentence within the Guidelines would avoid unwarranted sentencing disparities. Because the Sentencing
Guidelines provide an objective sentencing range, they
promote the overall goal under 18 U.S.C. § 3553(a)(6)
of minimizing unwarranted sentencing disparities.
See United States v. Mykytiuk, 415 F.3d 606, 608 (7th
Cir. 2005) (“The Guidelines remain an essential tool in
creating a fair and uniform sentencing regime across
the country”); see also Booker v. United States, 543
U.S. 220, 250 (2005) (goal of Congress was to create
system that “diminishes sentencing disparity”).
The Supreme Court mandated the advisory Guidelines
system to “continue to move sentencing in Congress’
preferred direction, helping to avoid excessive sentencing disparities while maintaining flexibility sufficient
to individual sentences where necessary.” Id. at 26465. To prevent widespread unwarranted disparities,
therefore, the best approach is to give serious consideration to the Guidelines.
Because the advisory Sentencing Guidelines range
in this case accounts for all of the factors this Court
must consider in sentencing defendant, a Guideline
sentence would ensure that there are no unwarranted
sentencing disparities between defendant and similarlysituated individuals.

94a
III. RESTITUTION BY INSURANC PROVIDER
Restitution Amounts by Insurance Company
Medicare
Total Amount Paid:

$2,129,069

Minus
Medicare calculation for procedure
98941:
Medical Record Review for Tiu’s and
Latane’s Medicare Services:

$299,255
$997
$300,252

$2,129,069 - $300,252 = $1,828,817
(Total Medicare Restitution Amt.)
% Loss Amount: $1,828,817 / $4,087,736 = 44.74%
BC/BS
Total Amount Paid:

$3,168,429

Minus
BC/BS payment for procedure 98941:

$300,471

BC/BS Total Amount Paid
(Excluding 98941) for servicing
providers Associated Back Care,
Enrique Posada, and Spine Clinics
of America:

$606,631

Medical Record Review for Tiu’s and
Latane’s BC/BS Services:

$4,676
$911,778

$3,168,429 - $911,778 = $2,256,651
(Total BC/BS Restitution Amt.)
% Loss Amount: $2,256,651 / $4,087,736 = 55.20%

95a
Cigna
Total Amount Paid:

$2,582

Minus
Cigna Total Amount Paid
(Excluding 98941) for servicing
providers Associated Back Care,
Henry Posada, and Posada Henry:

$315
$2,267

$2,582 - 315 = $2,267
(Total Cigna Restitution Amount)
% Loss Amount: $2,267 / $4,087,736 = 00.05%
IV. CONCLUSION
For the foregoing reasons, the government requests
that the Court impose a Guideline Sentence of 63 to 78
months of imprisonment.
Dated: January 9, 2018.
Respectfully submitted,
John Lausch
United States Attorney
By: /s/ Nathalina A. Hudson
NATHALINA A. HUDSON
Assistant United States Attorney
219 South Dearborn Street, 5th Floor
Chicago, Illinois 60604
(312) 353-1123

96a
APPENDIX J
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
————
Case No. 17 CR 165
————
UNITED STATES OF AMERICA,
v.

Plaintiff,

HENRY POSADA,
Defendant.
————
Judge Edmond E. Chang
————
DEFENDANT’S OBJECTIONS TO THE
PRESENTENCE INVESTIGATION REPORT AND
SENTENCING MEMORANDUM
Defendant HENRY POSADA, by and through his
attorney, ANDREW R. DEVOOGHT, respectfully submits this sentencing memorandum for this Court’s
consideration in fashioning a sentence that is sufficient, but not greater than necessary to comply with
the purposes of sentencing set forth in 18 U.S.C. § 3553.
I. OBJECTIONS TO THE PRESENTENCE
INVESTIGATION REPORT’S GUIDELINES
CALCULATION
Mr. Posada respectfully offers the following objection
to U.S. Probation’s Presentence Investigation Report
(“PSR”):

97a
Paragraph 26: In Paragraph 26, the PSR concludes
that “[b]ased on the information provided by the government, which includes a reasoned calculation based
on the available evidence, rather than testimony regarding the perceived amount of business of the defendant’s
practice, this officer submits that a reasonable estimation of the loss amount is greater than $3.5 million but
less than $9.5 million.” While Mr. Posada readily
acknowledges that he submitted numerous claims to
health care benefit programs between 2008 and 2016
that were not correct, Mr. Posada respectfully disagrees
with both the PSR’s characterization and assessment
of the parties’ respective evidence. As explained in the
Defendant’s version, Mr. Posada respectfully submits
that the evidence presented at trial demonstrates that
the loss amount is far less than $3.5 million.
As an initial matter, as the Court saw firsthand, the
evidence Mr. Posada relies on in arguing that the loss
amount is far less than $3.5 million is not, as the PSR
suggests, “testimony regarding the perceived amount
of business of the defendant’s practice.” Indeed, it is
the government’s own surveillance in October and
November 2015, shortly before the government executed
a search warrant, that demonstrates that Mr. Posada
saw many patients in a given day. For example, on
November 4, 2015, in a period of less than 2 hours and
15 minutes, government agents observed 26 “patients”
go into Mr. Posada’s office. Additionally, on November
13, 2015, government agents observed 25 patients and
a physical therapist enter Mr. Posada’s office over the
course of approximately 4 hours and 16 minutes. And
the evidence at trial showed that the Government did
not try to identify or talk to any of these 51 patients
about the nature of the services they received at Mr.
Posada’s offices. Importantly, these are not instances
of Mr. Posada “cherry picking” for results that support

98a
his argument. As the evidence at trial demonstrated,
curiously, on a number of occasions, law enforcement
performed surveillance on days on which they already
seemingly knew that Mr. Posada did not provide services at his office, e.g., Tuesdays and Thursdays.
Moreover, respectfully, the PSR does not, understandably, fully capture the nature and significance of
the sources of the testimony Mr. Posada does rely on
to demonstrate that the loss amount is far less than
$3.5 million. For example, as the Court will recall,
Richard Latane was a key government witness and
physical therapist that worked in Mr. Posada’s office
on a periodic basis for several years covered by the
period in the indictment. Mr. Latane testified that
when he was at the office from approximately 3 p.m.
to 6 p.m. or 7 p.m., there were usually patients in
each of the patient treatment rooms that Mr. Posada
was attending to, as well as one or two patients
waiting to be seen by Mr. Posada. As the Court will
recall, the evidence at trial demonstrated that there
were approximately seven examination rooms in Mr.
Posada’s office.1 So a key government witness testified
that for three or four hours at a time, the seven treatment rooms were usually full, and additional patients
were waiting to receive services from Mr. Posada.
Finally, several of Mr. Posada’s patients testified on
his behalf. As the Court will recall, Mollie Turnage,
Irene Samuels, Loren White, John Hampton and
Vivian Nunn each testified that they saw Mr. Posada
1

Mr. Latane’s testimony at trial regarding the course of
treatment plan he established for future treatment was also
important as a number of Mr. Posada’s supposedly intentionally
fraudulent submissions of Mr. Latane’s billing number were,
in fact, likely Mr. Posada simply carrying out Mr. Latane’s
treatment plan and using his billing number.

99a
for treatment several days per week for extended
periods of time. These patients further testified that
Mr. Posada’s office was always busy when they went
to his office to receive treatment. Mr. Hampton testified that Mr. Posada’s office was “standing room only.”
Ms. Nunn not only testified that Mr. Posada’s office
was busy, she explained she contributed to making
sure the office was busy, regularly and voluntarily
handing out Mr. Posada’s business cards because she
benefitted from his services and wanted others to
benefit from such services as well. And Ms. Samuels
explained that there was a group of patients that
tended to go to the office for services around the same
time of day and that they were “like family.”
This testimony is particularly critical given the government’s heavy reliance on the lack of documentation
in Mr. Posada’s files in calculating its proposed loss
amount. Indeed, the evidence in this case demonstrated that a lack of documentation did not mean that
Mr. Posada did not provide services to patients. For
example, the patient files for Ms. Turnage, Ms. Samuels,
Mr. White, Mr. Hampton and Ms. Nunn all contained
very little documentation. Yet, as noted above, each of
these individuals testified that they saw Mr. Posada
for treatment several days per week for extended
periods of time. These examples undercut a crucial
assumption in the government’s calculation, which,
when coupled with the affirmative evidence of the
services Mr. Posada provided to many different patients,
demonstrates that the loss amount is far less than $3.5
million. This is true even after one accounts for the
“credits” the Government has now afforded Mr. Posada,
reducing its initial loss amount figure, based on the
evidence Mr. Posada either presented or elicited at trial.

100a
Indeed, Mr. Posada submits that further consideration of the evidence presented at trial, and, more
importantly, the Government’s subsequent submission for sentencing explaining its loss amount calculation,
shows that the Government has fallen short in meeting its burden of demonstrating a loss of even $1.5
million, much less $3.5 million.
Thus, Mr. Posada contends that the loss amount in
this case should increases the offense level by 14
pursuant to Guideline § 2B1.1(b)(1)(H), not 18 as the
PSR concludes.
II. Section 3553(a) Factors
It is well-established that the Sentencing Guidelines
are only advisory. United States v. Booker, 543 U.S.
220, 245-67 (2005). Thus, when sentencing a defendant, this Court “must first calculate the Guidelines
range, and then consider what sentence is appropriate
for the individual defendant in light of the statutory
sentencing factors, 18 U.S.C. § 3553(a).” Nelson v.
United States, 555 U.S. 350, 351, 129 S. Ct. 890, 891892 (2009); United States v. Panice, 598 F.3d 426, 441
(7th Cir. 2010).
Mr. Posada respectfully submits that consideration
of the criteria set forth in § 3553(a) demonstrates that
a term of imprisonment well below the Guideline
range is appropriate in this case.
A. The Nature and Circumstances of the
Offense
Mr. Posada is deeply apologetic for and embarrassed
by the numerous incorrect billings he submitted to
health care benefit programs between 2008 and 2016.
Mr. Posada failed to recognize at the time what he
should have: that between his disorganization, lack

101a
of support staff, lack of adequate or consistent
record keeping, and chronic health issues, the bills he
submitted would not be accurate. Mr. Posada accepts
responsibility for what has happened and wants to
make things right. Indeed, that is why he accepted,
without argument, the two-level enhancement for abuse
of a position of trust pursuant to Guideline § 3B1.3.
That said, Mr. Posada respectfully asks the Court to
consider these and other circumstances this Court
heard about firsthand at trial that served as the
backdrop to these numerous incorrect billings.
Additionally, Mr. Posada respectfully asks this
Court to consider the evidence this Court heard at trial
and will hear by way of letters and potentially additional testimony at the sentencing hearing regarding
the many patients Mr. Posada has helped both in his
office and by way of home visits to patients who could
not make it to his office. Indeed, while all of the
patients who testified on Mr. Posada’s behalf talked
about how he helped them, it is hard to imagine a more
telling example of the assistance and relief Mr. Posada
provided than Ms. Nunn. As noted above, Ms. Nunn
explained that she regularly and voluntarily handed
out Mr. Posada’s business cards because she benefitted from his services and wanted others to benefit from
such services as well. Such examples readily distinguish Mr. Posada from many a defendant who find
themselves in similar situations.
B. History and Characteristics of Mr. Posada
Certain aspects of Mr. Posada’s history and characteristics demonstrate that a term of imprisonment
well below the Guideline range is appropriate in this
case. Most importantly, and unusually, is Mr. Posada’s
well-documented medical history. As the Court saw
firsthand, Mr. Posada, well before he ever knew he was

102a
under investigation of any kind, struggled to function
on a normal basis, aggressively sought for literally
years to figure out what was wrong with him, and
withdrew both from those closest to him and from the
very life he worked hard to build.
Given that the Court heard extensive evidence
regarding Mr. Posada’s health at trial, and that the
Court itself has Mr. Posada’s medical records, Mr.
Posada will not, in the present memo, go into that
same level of detail. But the evidence was clear, from
virtually everyone who was around him during the
relevant time period, Mr. Posada suffered, and his
family suffered. While the government sought to
highlight a small handful of examples of extremely
sedentary activities in which Mr. Posada participated,
such as bird watching, this is clearly not a case of a
fraudster living a fun and glamourous life on the backs
of the tax payers. As Mr. Posada’s wife described at
trial, Mr. Posada dragged himself out of the house to
work three days a week, and otherwise rested,
withdrawn from his family.
And it was not just Mr. Posada’s wife who saw the
impact his health was having on himself and his
family. This Court heard from Mr. Posada’s close
friends, and even his pastor, about Mr. Posada’s decline
and withdrawal. Similarly, at least three different
patients talked about their firsthand experiences
seeing Mr. Posada struggle with his health, including
Ms. Samuels and Ms. Turnage, who observed Mr.
Posada have to be taken from his office to the hospital
while they were at his office to receive treatment. This
was not an act, or some made up excuse to create an
alibi for a hypothetical investigation years in the
future.

103a
Moreover, and truly unique, are Mr. Posada’s
well-documented attempts to get to the bottom of
his underlying health issues. While the Probation
Officer’s Recommendation references the idea that treatment for “Liddle Syndrome” is “apparently relatively
straightforward,” an assertion Mr. Posada respectfully
submits is contradicted by the evidence at trial from a
medical Doctor with decades of experience, what is
more important for present purposes is that it took
almost a decade to finally arrive at this diagnosis, and
it was only achieved thanks to Mr. Posada’s continued
efforts to figure out what was really going on.
Mr. Posada respectfully requests that the Court
consider the fact that Mr. Posada has experienced real
health issues that have had a daily impact on himself
and those around him.
Finally, and relatedly, Mr. Posada cherishes every
moment he can get with the family that his health took
him away from, including his daughter who is still
living in the family household and going to high school.
Mr. Posada respectfully asks that the Court sentence
him to a term of imprisonment well below the Guideline range so he can make up for this time that he lost
with his family due to his underlying health issues.
C. The need to reflect the seriousness of the
offense, to promote respect for the law, and
to provide just punishment for the offense;18
U.S.C. § 3553(a)(2)
A term of imprisonment well below the Guideline
range will reflect the seriousness of the offense, promote respect for the law, and provide just punishment.
This prosecution, its attendant consequences, such
as Mr. Posada losing the professional license he
spent years working to obtain and maintain, and a

104a
term of imprisonment well below the Guideline range
are sufficient to promote respect for the law here. This
is particularly true given Mr. Posada’s unique circumstances with respect to his health.
D. The need to afford adequate deterrence to
criminal conduct
A term of imprisonment well below the Guideline
range will be more than sufficient to effectuate the
goals of specific and general deterrence. In terms of
specific deterrence, Mr. Posada fully understands the
harm he has caused and he will be painfully aware of
this fact for the rest of his life. Moreover, Mr. Posada
has had no other trouble with law enforcement other
than an insurance-related ticket more than 25 years
ago. Mr. Posada is focused on repairing the damage he
has caused, his family, and his health. He is committed to these goals and a term of imprisonment well
below the Guideline range will be more than enough
punishment for Mr. Posada to understand that he
cannot, under any circumstances, cause such damage
in the future.
As for general deterrence, Mr. Posada’s humiliation
has been quite public. Indeed, anyone in Chicago
with access to print media or the internet has likely
witnessed Mr. Posada’s humiliation. And this will only
continue. In addition to the sentence Mr. Posada will
receive on February 13, as noted above, he will also
lose his professional license. Thus, in addition to all of
the foregoing, a term of imprisonment well below the
Guideline range would deter anyone from putting
themselves in a similar situation.

105a
E. The need to protect the public from further
crimes of the defendant
There is no need to protect the public from Mr.
Posada. Mr. Posada has lived an otherwise law abiding
life, and, as explained above, he very clearly understands that he can never cause such damage in the
future. Moreover, he obviously will not be able to
participate in such insurance programs in the future.
F. Further Training, Medical Care or Correctional Treatment
Mr. Posada is keenly focused on continuing to
address the serious health issues that have troubled
him for more than a decade. As noted above, the
Probation Officer’s Recommendation references the
idea that treatment for “Liddle Syndrome” is “apparently relatively straightforward.” While Mr. Posada
does not believe that assessment is consistent with the
evidence presented at trial, Mr. Posada respectfully
submits that his medical history, which includes “Liddle
Syndrome” and other conditions, and the impact it has
clearly had on all aspects of his life, demonstrates that
he will be in a much better position to continue to
address these issues in a non-custodial setting. Thus,
Mr. Posada respectfully requests a sentence well
below the Guideline range so he can fully address
these issues as soon as possible.
G. The Advisory Guideline Range
Though the advisory guideline range is one factor
this Court considers in determining Mr. Posada’s
sentence, see Biddle, 2014 U.S. Dist. LEXIS 143733 at
*11 (citing 18 U.S.C. § 3553(a)), the Guideline provisions applicable to Mr. Posada are flawed such that
the resulting advisory guideline range does not warrant
the same weight it might deserve in cases involving
other Guideline provisions.

106a
Indeed, although the court must properly calculate
the guideline sentencing range, the court may not
presume the guidelines range is reasonable. Gall, 552
U.S. at 49, Rita, 551 U.S. at 351. Even though the
court must still consider the sentencing range, it is,
after Booker, no more than a suggestion that might be
persuasive, but might not. United States v. Glover, 431
F.3d 744, 752-53 (11th Cir. 2005) (Tjoflat, J., concurring).
In Rita v. United States, 551 U.S. 338 (2007), the
Supreme Court gave two reasons why it may be fair to
assume that the guidelines reflect a rough approximation of sentences that might achieve § 3553(a)’s objectives. First, the original Sentencing Commission used
an empirical approach which began with “an empirical
examination of 10,000 presentence reports setting
forth what judges had done in the past.” Rita, 551 U.S.
at 349. Second, the Commission can review and revise
the guidelines based on judicial feedback through
sentencing decisions, and consultation with other
frontline actors, civil liberties groups, and experts.
Rita, 551 U.S. at 350. The Supreme Court recognized,
however, that not all guidelines were developed in this
manner. See Gall v. United States, 552 U.S. 38, 46 &
n.2 (2007); Kimbrough v. United States, 552 U.S. 85,
96 (2007). When a guideline does not exemplify the
Commission’s exercise of its characteristic institutional
role—because the Commission did not take account of
empirical data and national experience—the sentencing
court is free to conclude that the guideline yields a
sentence greater than necessary to achieve § 3553(a)’s
purposes, even in a mine-run case. Kimbrough, 552
U.S. at 109-10.
The fraud guidelines are not the product of careful
study, nor are they based on empirical evidence. The
Commission decided to require incarceration in every

107a
fraud case, based on no identifiable evidence. Since then,
the loss amount enhancement has steadily increased.
Not surprisingly given the above, since Booker,
sentences in fraud cases have been going steadily
down, reflecting the courts’ recognition that the lossdriven guidelines overstate the seriousness of the
offense. Indeed, statistics from the U.S. Sentencing
Commissions Sourcebook of Federal Sentencing Statistics
show that the total percentage of below guidelines
sentences in fraud cases has increased almost every
year since Booker was decided. Indeed, in 2005 courts
departed from the guidelines in approximately 33% of
fraud cases, and 46% of those departures were not
sponsored by the government. By 2015, courts departed
from the guidelines in 57.6% of fraud cases, and
53% of those departures were not sponsored by the
government.
CONCLUSION
For the foregoing reasons, Mr. Posada respectfully
submits that a sentence well below the Guideline
range is sufficient, but not greater than necessary, to
comply with the statutory directives set forth in 18
U.S.C. § 3553(a).
Dated: January 23, 2018
LOEB & LOEB LLP
By: /s/ Andrew DeVooght
Andrew DeVooght
312 N. Clark Street, Suite 2300
Chicago, Illinois 60647
Tel: 312.464.3100
Fax: 312.464.3111
Attorney for Defendant Henry Posada

108a

[This page was intentionally left blank]

111a
[LOGO]
Department of Health and Human Services
OFFICE OF INSPECTOR GENERAL
OFFICE OF INVESTIGATIONS
REPORT OF INVESTIGATIVE ACTIVITY
An Investigative activity was conducted on 11/4/2015
by Special Agent Peter Theiler. The following was the
nature of the activity:
Surveillance at 410 Colfax Street., Clarendon Hills, IL
– Residence of Henry Posada (11/4/2015)
6:00AM – SA Theiler arrived. Red 4-door Nissan
Murano, IL license plate X75 249 in driveway. Detached
garage door closed. No lights on in residence.
Investigative Activity conducted on 11/4/2015
At 410 Colfax Street, Clarendon Hills, IL and
4354 W. 63rd St., Chicago, IL
By Peter Theiler SA Phone Number (312) 886-4108
Date Prepared 11/10/2015 By Peter Theiler
Case Number 5-15-00175-9
This document, including any attachments and information contained therein, is the property of HHS OIG
and is for OFFICIAL USE ONLY. The original and
any copies of the report must be appropriately controlled and maintained. Disclosure to unauthorized
persons without prior written approval of the Deputy
Inspector General for Investigations or his/her designee
is strictly prohibited and may subject the disclosing
party to liability. Unauthorized persons may include,
but are not limited to, individuals referenced in the
report, contractors, and individuals outside the HHS.
Public disclosure is determined by the Freedom of
Information Act (Title 5, U.S.C, Section 552) and the
Privacy Act (Title 5, U.S.C., Section 552a).

112a
7:05AM – (2) female teenagers exit front door of
residence front door and enter red Nissan Murano.
7:07AM – Red Nissan Murano with (2) female
teenagers departs from residence.
7:35AM – Black BMW 4-door sedan, Illinois license
plate A22 8177 with Posada departs from residence.
7:40AM – Surveillance ended. SA Theiler departs to
4354 W. 63rd St., Chicago, IL.
Surveillance at 4354 W. 63rd St., Chicago, IL
(11/4/2015)
8:15AM – Black BMW 4-door sedan, Illnois license
plate A22 8177 with Posada parked in Parking lot.
Parking lot located on the corner of 63rd Street and
Kostner.
8:16AM – Posada departs from Black BMW and enters
the side door of 4354 W. 63rd St., Chicago, IL. Lights
are turned on.
8:47AM – 11:00AM – Approximately 26 individuals
entered 4354 W. 63rd St., Chicago, IL. Individuals
entered through the side door and front door of the
building. Majority of the patients were elderly.
11:00AM – Lights are on and office appears open. Due
to other case commitments, Surveillance ended.

113a
209A–CG–6716024 Serial 41
FEDERAL BUREAU OF INVESTIGATION
Date of entry 12/07/2015
On Friday, November 13, 2015, a physical surveillance
was conducted at the office of ASSOCIATED BACK
CARE AND REHABILITATION (“ABC REHAB”) at
4354 West 63rd Street, Chicago, Illinois 60629. The
surveillance was conducted by Special Agents Cathy
Barbour (FBI) and Pete Theiler (HHS-OIG). The following observations were made during the surveillance
(the times listed are approximate):
8:12 a.m. Dr. ENRIQUE “HENRY” POSADA arrives
via 63rd Street in his black BMW sedan with Illinois
license plate A22 8177. POSADA parked in the empty
lot just west of ABC REHAB. Prior to pulling into the
lot, POSADA exited his vehicle to open a gate blocking
access to the lot. POSADA parked his vehicle and
remained in his vehicle for a few minutes.
8:14 a.m. An elderly male approaches POSADA’s
vehicle and speaks to POSADA through the driver side
window. The elderly male then walks off and heads
north on Kostner. He enters the third house on the
east side of Kostner. The house has lattice wood work
on the porch and displays an American flag.
Investigation on 11/13/2015 at Chicago, Illinois,
United States (In Person)
File # 209A-CG-6716024 Date drafted 11/13/2015
by SA Cathy A. Barbour
This document contains neither recommendations nor
conclusions of the FBI. It is the property of the FBI and
is loaned to your agency; it and its contents are not to
be distributed outside your agency.

114a
8:16 a.m. POSADA gets out of his vehicle.
8:17 a.m. POSADA enters ABC REHAB through the
side door on Kostner. [Photos 3929-3932]
8:25 a.m. A female walking with a cane is dropped off
outside the front door of ABC REHAB on 63rd Street.
She is dropped off by a black KIA sport utility vehicle.
[Photos 3934-3939]
8:55 a.m. A female driving a red Honda with Illinois
license plate R95 4010 parks her car in the lot and
walks into ABC REHAB. [Photos 3941, 3942, 3946]
9:00 a.m. A male driving a black two-door BMW with
Illinois license plate 604 2393 parks his car in the lot
and walks into ABC REHAB. [3940, 3942-3945]
9:05 a.m. A male carrying a leather briefcase exits a
city bus at the bus stop on 63rd Street and walks into
ABC REHAB.
9:09 a.m. A female driving a white mini-van with
Illinois license plate 964 7053 parks her car in the lot
near POSADA’s car and walks into ABC REHAB.
[Photos 3950-3954]
9:14 a.m. A female driving a gray Toyota sedan with
Illinois license plate P19 6458 parks her car on
Kostner and walks into ABC REHAB. [Photos 39553963]
9:17 a.m. A male exits a city bus at the bus stop on
63rd Street and walks into ABC REHAB. [Photos
3964-3967]
9:38 a.m. A female in a motorized wheelchair is
dropped off by a Pace van. She enters ABC REHAB.
[Photos 3969-3975]
9:38 a.m. The male who drove the two-door BMW with
Illinois license plate 604 2393 and the male carrying

115a
the leather briefcase who arrived via city bus exit ABC
REHAB together. They both get into the two-door
BMW and leave. [Photos 3976-3980]
9:39 a.m. The female who drove the gray Toyota sedan
with Illinois license plate P19 6458 exits ABC REHAB.
She gets in her car and leaves. [Photos 3981-3984]
9:47 a.m. The female walking with a cane who was
dropped off by the black Kia leaves ABC REHAB. She
crosses 63rd Street and gets on a city bus heading east.
[Photos 3985-3990]
9:52 a.m. A male leaves ABC REHAB and gets into a
silver/gray four door sedan with Illinois license plate
R60 3968 which is parked in the lot. [Photos 39913997]
10:01 a.m. A male and a female arrive on foot from
Kostner. They enter ABC REHAB. [Photos 3999-4000]
10:04 a.m. A male, who parked a white van behind
ABC REHAB in the alley and entered ABC REHAB
then soon comes back out and leaves.
10:04 a.m. Two females approach ABC REHAB on foot
from the east on 63rd Street. They enter ABC REHAB.
10:10 a.m. A red sport utility vehicle (SUV) with
Illinois license plate V60 6746 drops off three females
in front of ABC REHAB. The women enter ABC
REHAB. The SUV then parks in the lot. The driver, a
male, exits the SUV. The driver walks toward ABC
REHAB but stops to talk to a male who is driving a
black sedan with Illinois license plate P43 7849. The
driver of the SUV continues on into ABC REHAB. The
driver of the black sedan parks his car in the lot and
enters ABC REHAB. [Photos 4003-4021]

116a
10:34 a.m. The female who drove the white mini-van
with Illinois license plate 964 7053 exits ABC REHAB.
She gets in her car and leaves. [Photos 4026-4027]
10:48 a.m. A male driving a gray mini-van with Illinois
license plate P65 3961 parks his car in the lot and
enters ABC REHAB. [Photos 4028-4030]
10:54 a.m. A PACE van drops off a female who enters
ABC REHAB. [Photos 4031-4033]
10:55 a.m. A Ford Taurus with Illinois license plate
FN 9991 parks in the lot. Two females exit the vehicle
and enter ABC REHAB. [Photos 4034, 4035, 4036 and
4038]
10:57 a.m. A female driving a blue sedan with Illinois
license plate J47 3306 parks her car in the lot and
enters ABC REHAB. [Photos 4037, 4039-4040]
10:57 a.m. The two women who previously arrived on
foot exit ABC REHAB. They walk east on 63rd Street
and get into a burgundy Buick SUV to leave. [Photos
4041-4050]
11:02 a.m. The male who arrived in the black sedan
with Illinois license plate P43 7849 leaves ABC
REHAB out the side door on Kostner. He gets in his
car and leaves. [Photos 4051-4053]
11:17 a.m. A male driving a blue van with Illinois
license plate 789 7231 parks his van in the lot and
walks into ABC REHAB. [Photos 4054-4058]
11:18 a.m. The male and female who arrived together
on foot from Kostner exit ABC REHAB and leave on
foot, heading north on Kostner. [Photos 4059-4061]
11:19 a.m. A PACE van arrives, parks on 63rd Street,
and waits. [Photo 4062]

117a
11:28 a.m. The female who previously arrived via
PACE van exits ABC REHAB and gets into the Pace
van. [Photos 4063-4064]
11:30 a.m. The PACE van drives off.
11:31 a.m. The male who drove the red sport utility
vehicle (SUV) with Illinois license plate V60 6746 exits
ABC REHAB through the side door on Kostner. He
gets into the SUV and waits. [Photo 4065]
11:33 a.m. The three females who arrived in the red
sport utility vehicle (SUV) with Illinois license plate
V60 6746 exit ABC REHAB and get back into the SUV.
The SUV leaves. [Photos 4066-4068, 4072-4074]
11:33 a.m. A male driving a silver sedan with Indiana
license plate VH 3428 parks in the lot and enters ABC
REHAB. [Photos 4069-4071, 4075-4077]
11:45 a.m. A PACE van arrives.
11:49 a.m. The PACE van drives away. (Traffic
obscures view of which passenger enters van.)
11:55 a.m. The male who drove the gray mini-van with
Illinois license plate P65 3961 exits the side door (on
Kostner), returns to his mini-van and leaves. [Photo
4078]
12:03 p.m. The male who drove the blue van with
Illinois license plate 789 7231 exits ABC REHAB and
leaves in his van. [Photos 4079-4080]
12:03 p.m. The two females who arrived in the Ford
Taurus with Illinois license plate FN 9991 exit ABC
REHAB and leave in the Taurus. [Photos 4081-4082]
12:04 p.m. The female who drove the blue sedan with
Illinois license plate J47 3306 exits ABC REHAB and
leaves in the blue sedan. [Photos 4083-4084]

118a
12:04 p.m. The male who drove the silver sedan with
Indiana license plate VH 3428 exits ABC REHAB and
leaves in the silver sedan. [Photo 4085]
12:06 p.m. A tan/brown sport utility vehicle with
Indiana license plate (handicap plate) D79 OPZ arrives
and parks on Kostner. A male and a female exit the
vehicle and enter ABC REHAB. [Photos 4086-4090]
12:29 p.m. The male and female from the sport utility
vehicle with Indiana license plate (handicap plate)
D79 OPZ exit the side door on Kostner. They get in the
sport utility vehicle and leave. [Photos 4092-4095]
12:33 p.m. The female who arrived in the red Honda
with Illinois license plate R95 4010 exits the side door
on Kostner. She gets into the red Honda and leaves.
[Photos 4096-4099]
2:00 p.m. Surveillance is terminated.

